<html>
<title> - DOI SPENDING FOR THE U.S. FISH AND WILDLIFE SERVICE (FWS) AND OFFICE OF INSULAR AFFAIRS (OIA) AND THE PRESIDENT'S FY 2012 BUDGET REQUEST FOR FWS AND OIA</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
 DOI SPENDING FOR THE U.S. FISH AND WILDLIFE SERVICE (FWS) AND OFFICE 
 OF INSULAR AFFAIRS (OIA) AND THE PRESIDENT'S FY 2012 BUDGET REQUEST 
                            FOR FWS AND OIA 

=======================================================================

                           OVERSIGHT HEARING

                               before the

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE,
                       OCEANS AND INSULAR AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                        Wednesday, March 2, 2011

                               __________

                            Serial No. 112-3

                               __________

       Printed for the use of the Committee on Natural Resources



      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                                   or
          Committee address: http://naturalresources.house.gov


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

64-955 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



















                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      Donna M. Christensen, VI
Scott R. Tipton, CO                  John P. Sarbanes, MD
Paul A. Gosar, AZ                    Betty Sutton, OH
Raul R. Labrador, ID                 Niki Tsongas, MA
Kristi L. Noem, SD                   Pedro R. Pierluisi, PR
Steve Southerland II, FL             John Garamendi, CA
Bill Flores, TX                      Colleen W. Hanabusa, HI
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                   Rick Healy, Democrat Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON FISHERIES, WILDLIFE, OCEANS
                          AND INSULAR AFFAIRS

                       JOHN FLEMING, LA, Chairman
           DONNA M. CHRISTENSEN, VI, Ranking Democrat Member

Don Young, AK                        Eni F.H. Faleomavaega, AS
Robert J. Wittman, VA                Frank Pallone, Jr., NJ
Jeff Duncan, SC                      Madeleine Z. Bordallo, GU
Steve Southerland, II, FL            Gregorio Kilili Camacho Sablan, 
Bill Flores, TX                          CNMI
Andy Harris, MD                      Pedro R. Pierluisi, PR
Jeffrey M. Landry, LA                Rush D. Holt, NJ
Jon Runyan, NJ                       Edward J. Markey, MA, ex officio
Doc Hastings, WA, ex officio

                                 ------                                














                                CONTENTS
  
                                 -------                              
                                                                   Page

Hearing held on Wednesday, March 2, 2011.........................     1

Statement of Members:
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands.............................................     3
        Prepared statement of....................................     6
    Fleming, Hon. John, a Representative in Congress from the 
      State of Louisiana.........................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Bussanich, Tom, Director, Budget and Grants Management 
      Division, Office of Insular Affairs, U.S. Department of the 
      Interior...................................................    12
        Prepared statement of....................................    13
    Gould, Hon. Rowan, Acting Director, U.S. Fish and Wildlife 
      Service, U.S. Department of the Interior...................    33
        Prepared statement of....................................    35
    Tulafono, Hon. Togiola, Governor of American Samoa...........     7
        Prepared statement of....................................     9

Additional materials supplied:
    de Jongh, Hon. John P., Jr., Governor of the U.S. Virgin 
      Islands, Statement submitted for the record................    26


 OVERSIGHT HEARING ON THE DEPARTMENT OF THE INTERIOR SPENDING FOR THE 
 U.S. FISH AND WILDLIFE SERVICE AND THE OFFICE OF INSULAR AFFAIRS AND 
 THE PRESIDENT'S FISCAL YEAR 2012 BUDGET REQUEST FOR THE UNITED STATES 
      FISH AND WILDLIFE SERVICE AND THE OFFICE OF INSULAR AFFAIRS.

                              ----------                              


                        Wednesday, March 2, 2011

                     U.S. House of Representatives

    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:00 a.m. in 
Room 1334, Longworth House Office Building, Hon. John Fleming 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Fleming, Duncan, Southerland, 
Flores, Landry, Runyan, Christensen, Faleomavaega, Bordallo, 
Sablan, Pierluisi, and Markey.

  STATEMENT OF THE HON. JOHN FLEMING, MD, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Dr. Fleming. The Subcommittee will come to order. The 
Chairman notes the presence of a quorum, which, under Committee 
Rule 3[e], is two Members. Under Committee Rule 4[f], opening 
statements are limited to the Chairman and Ranking Member of 
the Subcommittee so that we can hear from our witnesses more 
quickly. However, I ask unanimous consent to include any other 
Members' opening statements in the hearing record if submitted 
to the Clerk by the close of business today. Hearing no 
objection, so ordered.
    Good morning, and welcome to the first hearing of the 
Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs 
for the 112th Congress. I am Dr. John Fleming, the newly 
appointed Chairman of this Subcommittee, and I am proud to 
represent the citizens of the 4th Congressional District of 
Louisiana.
    By way of brief background, I served as a medical officer 
in the United States Navy for six years, including a tour on 
the Island of Guam. And I have operated a family medical 
practice in Minden, my hometown, since 1982.
    Prior to being elected to Congress, I held no state or 
Federal office, yet, like many of my colleagues, I know what it 
takes to create and run a successful business, and, more 
importantly, to make a payroll.
    We are living in extraordinary times. Our national debt now 
exceeds $14 trillion, and every man, woman, and child in this 
country owes $45,580, even at birth.
    The debt is not only unsustainable, but is literally 
bankrupting this country. Just six years ago, the national debt 
was $7.6 trillion. We have now nearly doubled that amount, and 
the government is borrowing a staggering 41 cents for every 
dollar it spends.
    Two years ago, President Obama told a town hall meeting in 
Rio Rancho, New Mexico, that current deficit spending was 
unsustainable, and that we are mortgaging our children's future 
with more and more debt. I agree with the President.
    It was, therefore, alarming to see the President recommend 
funding for the Land and Water Conservation Fund 145 percent 
higher than when he came into office. That is 145 percent.
    We simply cannot afford this type of Federal growth, and 
the Federal Government should not be profiting from the misery 
of our constituents, who have watched their land values fall. 
With the Operations and Maintenance backlog for the National 
Wildlife Refuge System approaching $4 billion, this is not the 
time to further burden the Fish and Wildlife Service with 
additional land they will find difficult, if not impossible, to 
properly maintain in the future--a problem, by the way, we have 
with our highway system.
    We must reduce spending. It is my hope that we can work 
together in a bipartisan way to examine those programs under 
the jurisdiction of this Subcommittee, and to objectively ask 
whether our taxpayers are still getting a fair return on their 
investments, whether there are programs performing the same or 
similar functions, whether there are programs, whether there is 
waste in a program, whether the Federal Government should even 
be performing certain jobs, and whether a Federal program has 
outlived its usefulness and should be terminated.
    We will start this process today by examining the Fiscal 
Year 2012 budget request for the U.S. Fish and Wildlife Service 
and the Office of Insular Affairs. Later this month we will 
conduct a similar analysis of the Obama Administration's 
request for the National Oceanic and Atmospheric 
Administration.
    In my letter of invitation I asked each witness to be 
prepared to answer specific questions about major aspects of 
their budget request, and to explain how they spent the 
taxpayer money provided to them by the American Recovery and 
Reinvestment Act. I am particularly interested in hearing how 
many full-time, part-time, or temporary jobs were created, and 
whether these projects would have been built in the absence of 
this huge infusion of Federal money.
    I look forward to hearing from our witnesses. And I am now 
pleased to recognize our new Ranking Democrat Member, the 
gentlelady from the Virgin Islands, Congresswoman Donna 
Christensen; Dr. Christensen, I might add, who has the 
distinction of being the first female physician in the history 
of the U.S. Congress.
    Dr. Christensen, you are recognized for any statement you 
would like to make.
    [The prepared statement of Dr. Fleming follows:]

          Statement of The Honorable John Fleming, Chairman, 
    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

    Good morning and welcome to the first hearing of the Subcommittee 
on Fisheries, Wildlife, Oceans and Insular Affairs for the 112th 
Congress.
    I am Dr. John Fleming, the newly appointed Chairman of this 
Subcommittee and I am proud to represent the citizens of the 4th 
Congressional District in Louisiana. By way of brief background, I 
served as a Medical Officer in the United States Navy for six years 
including a tour on the island of Guam and I have operated a family 
medical practice in Minden since 1982.
    Prior to being elected to Congress, I held no state or federal 
office, yet, like many of my colleagues, I know what it takes to create 
and run a successful business and more importantly to make a payroll.
    We are living in extraordinary times. Our national debt now exceeds 
14 trillion and every man, woman and child in this country owes 
$45,580. This debt is not only unsustainable but it is literally 
bankrupting this country. Just six years ago, the national debt was 
$7.6 trillion. We have now nearly doubled that amount and the 
government is borrowing a staggering 41 cents for every dollar it 
spends.
    Two years ago, President Obama told a town hall meeting in Rio 
Rancho, New Mexico that current deficit spending was ``unsustainable'' 
and that: ``We are mortgaging our children's future with more and more 
debt''. I agree with the President. It was, therefore, alarming to see 
the President recommend funding for the Land and Water Conservation 
Fund 145 percent higher than when he came into office. 145 percent. We 
simply cannot afford this type of federal growth and the federal 
government should not be profiting from the misery of our constituents 
who have watched their land values fall. With the operations and 
maintenance backlog for the National Wildlife Refuge System approaching 
$4 billion, this is not the time to further burden the Fish and 
Wildlife Service with additional land they will find difficult, if not 
impossible, to properly maintain in the future.
    We must reduce spending. It is my hope that we can work together in 
a bipartisan way to examine those programs under the jurisdiction of 
this Subcommittee and to objectively ask whether our taxpayers are 
still getting a fair return on their investments, whether there are 
programs performing the same or similar functions, whether there is 
waste in a program, whether the federal government should even be 
performing certain jobs and whether a federal program has outlived its 
usefulness and should be terminated.
    We will start this process today by examining the FY'12 budget 
requests for the U.S. Fish and Wildlife Service and the Office of 
Insular Affairs. Later this month, we will conduct a similar analysis 
of the Obama Administration's request for the National Oceanic and 
Atmospheric Administration.
    In my letter of invitation, I asked each witness to be prepared to 
answer specific questions about major aspects of their budget requests 
and to explain how they spent the taxpayer money provided to them by 
the American Recovery and Reinvestment Act. I am particularly 
interested in hearing how many full time, part-time or temporary jobs 
were created and whether these projects would have been built in the 
absence of this huge infusion of federal money.
    I am now pleased to recognize our new Ranking Democratic Member, 
the gentle lady from the Virgin Islands, Congresswoman Donna 
Christensen who has the distinction of being the first female physician 
in the history of the U.S. Congress. Dr. Christensen welcome.
                                 ______
                                 

   STATEMENT OF THE HON. DONNA M. CHRISTENSEN, A DELEGATE TO 
                CONGRESS FROM THE VIRGIN ISLANDS

    Dr. Christensen. Thank you, Dr. Fleming. And it seems we do 
share a lot in common, being family physicians and both of us 
coming to office it seems like straight from our practices. But 
I thank you for welcoming me, and it is a pleasure to join you 
for this first hearing of our Subcommittee.
    And I would like to take this opportunity to welcome 
Governor Tulafono to the hearing, as well as the other 
panelists, but especially our Governor.
    The Administration has requested $1.7 billion for the Fish 
and Wildlife Service, an increase of $48 million from the 
enacted levels for Fiscal Year 2010. This request reflects the 
difficult fiscal situation in which our country finds itself; 
yet, at the same time, by fully funding the Land and Water 
Conservation Fund, a fund that every district benefits from and 
needs.
    The budget request also reflects the importance of legacy 
investments in our nation's fish, wildlife, and habitats for 
the benefit of the American people, for the enjoyment of 
children, who are fascinated by our wildlife, the birdwatchers, 
our sportsmen and women, and others.
    The Administration's budget stands in sharp contrast to the 
Majority's Continuing Resolution, which would indiscriminately 
cut almost $400 million, or 25 percent, from the Service's 
discretionary budget.
    For example, the Majority cuts would eliminate $90 million 
in funding for the State and Tribal Wildlife Grants Program, 
which provides money to the states--the states--and tribes to 
prevent future endangered species listings by implementing 
voluntary conservation actions to stabilize declining fish and 
wildlife populations.
    In my district, these grants provide almost $200,000 to 
implement our Wildlife Action Plan, providing jobs and 
conserving wildlife in the U.S. Virgin Islands.
    And so I commend and wholeheartedly support the 
Administration's effort to increase its request for state and 
tribal wildlife grant programs, and for making other strategic 
choices to protect American jobs, and to preserve sustainable 
industries, including hunting, fishing, and wildlife tourism.
    But I remain very concerned with the long-term Operations 
and Maintenance budget backlog facing the National Wildlife 
Refuge System, and the cuts to the multi-national species 
conservation programs. I recognize that we face a difficult 
funding climate for several years ahead; yet we have to strike 
the balance in continuing to support the programs that we care 
about, and those that provide the greatest conservation 
benefits, while very importantly saving, and even creating, 
jobs.
    With respect to the insular areas, the President has 
proposed a Fiscal Year 2012 budget of $464.3 million for the 
Office of Insular Affairs, of which $377.1 million represents 
permanent and indefinite appropriations, including $145 million 
estimated for fiscal payments to Guam and the U.S. Virgin 
Islands, and $232 million for payments under the Compacts of 
Free Association. This amount is $13.4 million above the Fiscal 
Year 2010 and the current 2011 Continuing Resolution level.
    The programs funded under the OIA Fiscal Year 2012 budget 
request will focus on the long-term security interests of the 
United States in the Western Pacific and the Caribbean, and the 
serious economic and fiscal problems impacting the insular 
areas. Please note that the recently passed House Continuing 
Resolution would reduce the OIA budget by $6.679 million below 
the 2010 appropriated level for the remainder of 2011. If these 
cuts were to remain unchanged, it would mean that the Office of 
Insular Affairs would not be able to award any more technical 
assistance grants for the remaining seven months of the fiscal 
year. This, at a time when our fiscal, public safety, and 
environmental challenges--for example, in the Virgin Islands--
make having these funds more critical than ever. They fund 
projects on a short-term immediate basis to meet needs that 
cannot be funded anywhere else in the Federal Government's 
budget.
    It is my hope that through this hearing we will be able to 
examine whether OIA, through its proposed Fiscal Year 2012 
budget, is sufficiently positioned to fulfill these 
responsibilities of the insular areas, and respond to our most 
urgent needs.
    So thank you again, Mr. Chairman, for allowing me to make 
this brief opening statement. I look forward to hearing from 
our witnesses today, and to closely examining these issues so 
we can ensure that the Offices, both of them, are able to 
fulfill their obligations to the American people.
    Thank you, and that is my statement.
    Dr. Fleming. My thanks to the Ranking Member. During our 
opening remarks, we will have additional Members I would like 
to recognize today.
    First, Mr. Flores of Texas, thank you for being here; Ms. 
Bordallo, the gentlelady from Guam; Mr. Sablan, from the 
Northern Marianas; Mr. Pierluisi from Puerto Rico; And finally, 
Mr. Faleomavaega from American Samoa. Thank you, sir.
    And I would like to now recognize you, sir, for an 
introduction.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I want to thank 
you for having this oversight hearing on the Department of the 
Interior spending for the U.S. Fish and Wildlife Service and 
the Office of Insular Affairs on the President's Fiscal Year 
2012 budget requests for the U.S. Fish and Wildlife Service, as 
well as the Office of Insular Affairs.
    I believe this hearing gives us the opportunity to review 
and discuss Federal spending on fisheries and wildlife 
services, and Federal obligations to help the territorial 
governments in insular areas.
    I also want to personally welcome our distinguished panel 
of witnesses, and especially extend a warm welcome and 
greetings to The Honorable Togiola Tulafono, the Governor of 
American Samoa, who is with us here this morning.
    Mr. Chairman, with respect to the Fish and Wildlife 
Service, the proposed budget of $1.69 billion, a net increase 
of $47.9 million from the Fiscal Year 2010 enacted level, will 
provide more resources to help the Fish and Wildlife Service 
conserve, protect, and enhance fish, wildlife, plants, and 
other habitats for the American people. With respect to the 
territories and insular areas, the 2012 budget request for OIA 
includes a reduction in assistance to the territories. The 
requested amount of $87.2 million represents a decrease of 
$15.3 million from Fiscal Year 2010. This reduction will 
greatly restrict OIA's ability to provide critical support that 
is otherwise not available to the territorial governments.
    Mr. Chairman, I want to commend the Office of Insular 
Affairs and Mr. Babauta for the initiative taken to help 
develop a clean-energy future for the territorial governments. 
I am pleased that this initiative agrees with Federal policy 
that was first established by Congress in 1980, and most 
recently revised in 2005, to direct the Secretary of Energy, in 
consultation with the Secretary of the Interior, to prepare and 
submit to the Congress a comprehensive energy plan with 
emphasis on indigenous renewable energy resources for Puerto 
Rico, the Virgin Islands, Guam, American Samoa, the Northern 
Mariana Islands (CNMI), the Federated States of Micronesia 
(FSM), as well as the Marshall Islands (RMI), and the Republic 
of Palau.
    With that, Mr. Chairman, I want to ask unanimous consent 
that the substance of my statement be made part of the record. 
And thank you.
    Dr. Fleming. Without objection, accepted.
    [The prepared statement of Dr. Christensen follows:]

     Statement of The Honorable Donna Christensen, Ranking Member, 
    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

    Thank you Mr. Chairman. The Administration has requested $1.7 
billion for the Fish and Wildlife Service (Service), an increase of $48 
million from the enacted level for Fiscal Year 2010. This request 
reflects the difficult fiscal situation in which our country finds 
itself, yet at the same time, by fully funding the Land and Water 
Conservation Fund, the budget request also reflects the importance of 
legacy investments in our nation's fish, wildlife, and habitats for the 
benefit of the American people.
    The Administration's budget request stands in sharp contrast to the 
majority's continuing resolution, which would indiscriminately cut 
almost $400 million, or 25%, from the Service's discretionary budget. 
For example, the majority's cuts would eliminate $90 million in funding 
for the State and Tribal Wildlife Grants Program. This Program provides 
money to States and Tribes to prevent future endangered species 
listings by implementing voluntary conservation actions to stabilize 
declining fish and wildlife populations. In my district, these grants 
provide almost $200,000 to implement our Wildlife Action Plan, 
providing jobs and conserving wildlife in the U.S. Virgin Islands. I 
commend the Administration's efforts to increase its request for the 
State and Tribal Wildlife Grants Programs and for making other 
strategic choices to protect American jobs, and to preserve sustainable 
industries including hunting, fishing, and wildlife tourism.
    Nevertheless, I continue to remain concerned with the long-term 
operations and maintenance budget backlog facing the National Wildlife 
Refuge System and the cuts to the Multinational Species Conservation 
Programs. I recognize that we face a difficult funding climate for 
several years ahead, yet we will have to strike the right balance in 
continuing to support the programs that we care about and those that 
provide the greatest conservation benefits.
    With respect to the Insular Areas, the President has proposed a 
Fiscal Year 2012 budget of $464.3 million for OIA, of which $377.1 
million represents permanent and indefinite appropriations, including 
$145 million estimated for fiscal payments to Guam and the USVI and 
$232 million for payments under the Compacts of Free Association. This 
amount is $13.4 million above the FY 2010 and the current 2011 
Continuing Resolution (CR) level. The recently House passed CR would 
reduce the OIA budget by $6.679 below the FY2010 appropriated level for 
the remainder of FY 2011. If these cut were to remain unchanged, it 
would mean that the Office of Insular Affairs, would not be able to 
award any more Technical Assistance grants for the remaining seven 
months of this fiscal year. TA, funds are critically important to the 
islands, because they fund projects on a short-term immediate basis to 
meet needs that cannot otherwise be funded elsewhere in the federal 
government.
    Programs funded under the OIA Fiscal Year 2012 budget request will 
focus on the long-term security interests of the United States in the 
western Pacific and Caribbean and the serious economic and fiscal 
problems impacting the insular areas. It is my hope, that through this 
hearing, we will be able to examine whether OIA, through its proposed 
FY 2012 budget is sufficiently positioned to fulfill its 
responsibilities to the insular areas and respond to their most urgent 
needs.
    Thank you again Mr. Chairman for allowing me to make this brief 
opening statement. I look forward to hearing from our witness today and 
exploring these issues more deeply.
                                 ______
                                 
    Dr. Fleming. Thank you. And we will now hear from our first 
panel of witnesses.
    I would first like to welcome the distinguished Governor of 
American Samoa, The Honorable Togiola Tulafono. I hope I got 
that name pronounced correctly. Was that close, sir? OK. And 
Mr. Tom Bussanich, who is the Director of the Budget and Grants 
Management Divisions in the Office of Insular Affairs within 
the Department of the Interior.
    Like all witnesses, your written testimony will appear in 
full in the hearing record, so I ask that you keep your oral 
statement to five minutes, as outlined in our invitation letter 
to you, and under Committee Rule 4[a]. Our microphones are not 
automatic, so please press the button when you are ready to 
begin; and likewise, press it when you are finished.
    I also want to explain how our timing lights work. When you 
begin to speak, our clerk will start the timer, and a green 
light will appear. After four minutes a yellow light will 
appear and, at that time, you should begin to conclude your 
statement because you will have another minute in order to 
finish.
    You may complete that statement. And I am not going to stop 
you in mid-sentence, of course, but again, begin wrapping up at 
that point. OK.
    So I will first recognize The Honorable Togiola Tulafono 
for your opening statement, sir.

         STATEMENT OF THE HONORABLE TOGIOLA TULAFONO, 
                   GOVERNOR OF AMERICAN SAMOA

    Governor Tulafono. Thank you very much, Mr. Chairman, Mrs. 
Christensen, and the Honorable Members of the Subcommittee. And 
special greetings and Talofa to our own Eni Faleomavaega.
    Please allow me to extend our warmest greetings from the 
islands of American Samoa. I am honored to sit before you today 
to discuss American Samoa's input into the Fiscal Year 2012 
budget of the Department of the Interior's Office of Insular 
Affairs.
    Let me begin by providing a snapshot of the economic 
overview of our territory. Following the September 29, 2009 
tsunami and earthquake in American Samoa, the territory, on the 
very next day, lost one of its two canneries that employed more 
than 2,000 employees in the territory.
    With the injection of Federal FEMA Disaster Relief and 
Recovery monies, National Emergency Grant monies, and Census 
jobs into the territory at the same time, the full effects of 
the loss of Samoa Packing was mitigated to a certain extent. 
However, in this new fiscal year, American Samoa is now 
beginning to feel the full impact and the full force of the 
loss of Samoa Packing.
    In the first quarter of the current fiscal year, ASG began 
making plans geared toward furloughs of hours and jobs as a 
result of a significant decline in our revenues. The monthly 
shortfall just to keep ASG workers employed and the most basic 
of bills paid was approximately $600,000 per month. However, 
the total shortfall, annualized for the whole of 2011, is 
currently projected at close to $10 million.
    Beginning on February 6, 2011, employees of the American 
Samoa Government have been furloughed hours based on their 
annual salaries, with the lowest-salaried employees being 
reduced by four hours, up to the maximum reduction of 12 total 
hours for Cabinet members and the Lieutenant Governor and the 
Governor.
    School-level employees of Department of Education are not 
affected by the furlough of hours. This includes all classroom 
teachers, counselors, principals, and vice principals, bus 
drivers, school lunch staff, and all those associated with 
school. The choice there is conscious. We need to keep our 
schools open.
    On top of the furloughed hours, ASG has been working with 
the Fono in order to increase revenues through the submission 
of legislation that would institute a four-percent wage tax 
across the board for all residents of the territory. Increased 
taxes on beer, alcohol, and tobacco have also been submitted to 
the Fono. Bills to implement a corporate franchise tax and 
increase the business license fees charged by ASG are also 
before the Fono for consideration.
    There is word that the wage tax bill has passed both 
Chambers, but must be conferenced before it can be signed into 
law. This is but a snapshot for your consideration of the pains 
under which the territory is operating. I absolutely understand 
that our story is not unique, and that this is just about par 
for the course with the rest of the country.
    I sit before you today and tell you American Samoa is 
hurting much the same as the rest of our sister territories and 
states. American Samoa wishes to recognize the efforts of the 
Office of Insular Affairs and the Bureau of Economic Analysis 
for their commitment to providing data resources for the 
territories.
    The people of American Samoa have asked for a special 
consideration for years simply based upon our vulnerable 
economy and amazing disparity between mainland and island 
economies. Now we have the hard numbers to back our assertion.
    By these numbers, American Samoa's per capita real GDP was 
$7,874 in 2007, while the rest of the U.S. was $48,300 for that 
same timeframe. Undoubtedly, this will assist American Samoa in 
making our case to funding agencies and organizations that we 
absolutely need all the help we can get.
    We are engaged in cost-cutting savings measures, and we 
will continue to do so to help ourselves. We are very grateful 
for the CIP programs and the technical assistance programs 
administered by the Office of Insular Affairs. And we can't say 
enough to support their efforts.
    We do require a lot of support for our Tropical Medical 
Center. We make referrals off island because of the need to 
send our patients away for lack of professional staffing and 
specific equipment specialized for certain purposes. That is 
absolutely a great need, and it is absolute for the territory's 
needs.
    We are proposing a market study for air cargo and air 
passenger services in American Samoa in order to develop 
tourism. Assistance for the tuna industry is also absolutely 
required, and we hope that you will look seriously into that.
    We also hope that American Samoa and the territories are 
taken into consideration as Congress decides on the treatises 
that really affects us adversely every time in our economic 
developments.
    In conclusion, Mr. Chairman, I wish to thank you and your 
colleagues for your time here today, and for considering 
American Samoa's input into the Fiscal Year 2012 budget of DOI/
OIA that we have submitted in our written statement. Your 
support for American Samoa's dollars as contained in the 2012 
budget is greatly appreciated, and your consideration and 
support for the proposals discussed here today are critical.
    Thank you very much.
    [The prepared statement of Governor Tulafono follows:]

           Statement of The Honorable Togiola T.A. Tulafono, 
                       Governor of American Samoa

    Talofa Mr. Chairman and honored members of this Subcommittee. 
Please allow me to extend to our warmest greetings from the islands of 
American Samoa. I am honored to sit before you today to discuss 
American Samoa's input into the FY 2012 budget of the Department of the 
Interior's Office of Insular Affairs.
    Let me begin by providing a snapshot of the economic overview of 
our Territory. Following the September 29, 2009 tsunami and earthquake 
in American Samoa, the Territory on the very next day, lost one of its 
two canneries that employed more than 2,000 employees in the Territory. 
With the injection of federal FEMA disaster relief and recovery monies, 
National Emergency Grant monies and census jobs into the Territory, the 
full effects of the loss of Samoa Packing was mitigated to a certain 
extent. However, in this new fiscal year, American Samoa is now 
beginning to feel the impact full force of the loss of Samoa Packing.
    In the first quarter of the current fiscal year, ASG began making 
plans geared toward furloughs of hours and jobs as a result of a 
significant decline in our revenues. The monthly shortfall just to keep 
ASG workers employed and the most basic of bills paid was approximately 
$600,000 per month. However, the total shortfall annualized for the 
whole of 2011 is currently projected at close to $10 million. Beginning 
on February 6, 2011, employees of the American Samoa Government have 
been furloughed hours based on their annuals salaries with the lowest 
salaried employees being reduced by 4 hours up to a maximum reduction 
of 12 total hours for cabinet members. School level employees of the 
Department of Education are not affected by the furlough of hours. This 
includes all classroom teachers, counselors, principals and vice 
principals, bus drivers, school lunch staff, etc.
    On top of the furloughed hours, ASG has been working with the Fono 
in order to increase revenues through the submission of legislation 
that would institute a 4% wage tax across the board for all residents 
of the Territory. Increased taxes on beer, alcohol and tobacco have 
also been submitted to the Fono. Bills to implement a corporate 
franchise tax and increase the business license fees charged by ASG are 
also before the Fono for consideration. There is word that the wage tax 
bill has passed both chambers, but must be conferenced before it can be 
signed into law.
    This is but a shapshot for your consideration, of the pains under 
which the Territory is operating. I absolutely understand that our 
story is not unique, and that this is just about par for the course 
with the rest of the country. I stand before you today and tell you--
American Samoa is hurting much the same as the rest of our sister 
Territories and States.
GDP Project
    American Samoa wishes to recognize the efforts of the Office of 
Insular Affairs and the Bureau of Economic Analysis for their 
commitment to providing data resources for the Territories. The People 
of American Samoa have asked for special consideration for years simply 
based upon our vulnerable economy and the amazing disparity between 
mainland and island economics. Now we have the hard numbers to back our 
assertion--by these numbers, American Samoa's per capita real GDP was 
$7,874 in 2007 while the rest of the U.S. was $48,300 for that same 
time frame.
    Undoubtedly, this will assist American Samoa in making our case to 
funding agencies and organizations that we absolutely need all the help 
we can get.
2012 Cost Savings
    American Samoa is appreciative for the work of the OIA in realizing 
cost savings in the operation of their offices while not decreasing 
services to the Territories. We applaud the efforts of the OIA and 
encourage them to continue to find ways to increase the services to the 
Territories while realizing efficiencies within their own operations.
CIP Funding
    American Samoa is supportive of the newly proposed language which 
would reward Territories for timely expenditure and completion of CIP 
funded projects. At current, American Samoa is mobilizing the 
construction of a full service mental health facility to provide sorely 
needed mental health services in the Territory. The Territory's need to 
provide these critical treatment and preventive services to all 
populations in American Samoa has been underlined by our own High Court 
and the Executive will see the creation of the venue and the system 
completed as timely as possible. We ask that you support the funding as 
outlined in the DOI OIA Budget justifications to speed us on the road 
to access to adequate mental health care.
    ASG is also looking to upgrade the labor and delivery facilities of 
the LBJ Tropical Medical Center as well as its Intensive Care Unit 
utilizing CIP funding. This committee is well aware of the challenges 
that we face in the islands when it comes to adequate medical care. 
With funding in this current fiscal year falling well below 
projections, it is likely that our off island medical referral program 
will need as much local support as it can get. Therefore, your support 
for these critical infrastructure projects as contained in DOI OIA's 
2012 budget is greatly appreciated.
Technical Assistance Funding
    Last year, American Samoa was proud to become the latest Territory 
to collaborate with the National Renewable Energy Laboratory out of 
Golden, Colorado in order to conduct an initial energy efficiency/
renewal energy assessment. That assessment will be completed in the 
summer of 2011, with a draft to be made available as early as April. We 
look forward to this extremely important partnership with NREL and DOI 
OIA to find viable energy efficiency initiatives and renewable energy 
options that will work for the Territory
Proposals
    While American Samoa is grateful for the assistance that it has 
received and continues to receive from DOI OIA, we still require 
assistance with our most basic needs such as transportation and support 
for the tuna industry. The following major projects will be explored in 
the current fiscal year and any funding included in the FY 2012 budget 
in order to pay for these projects would be greatly appreciated.
Market Study: Air Cargo and Air Passenger Services in American Samoa
    Annual IGIA reports have noted the need for improved air services 
in the insular territories. Economic development today requires air 
service. Without regular and reasonably priced service for both 
passengers and cargo, business growth is impossible. Frequent, reliable 
air service is also vital for public welfare and safety. For example, 
territorial residents who need emergency medical procedures beyond the 
capacity of the hospital in American Samoa must wait for one of the two 
weekly flights to Honolulu.
    When approached by territorial officials in the past, U.S. air 
carriers have said that the market demand does not support their entry 
and service in Pago Pago. This response is puzzling. The territory's 
growing population as matter of course increases demand for air travel 
to other parts of the U.S. But due to the limited number of flights, 
the annual number of passengers leaving and arriving at Pago Pago 
airport has remained static notwithstanding significant population 
growth.
    Furthermore, the natural demand in the territory for passenger and 
cargo services between Pago Pago and other U.S. points is increased by 
similar demand from nearby island nations. Pago Pago serves as the U.S. 
entry point for the neighboring countries of Western Samoa, Tonga, 
Fiji, and the Cook Islands. Residents in these countries also desire 
U.S. travel and U.S. products.
    To demonstrate to U.S. air carriers that the market demand in fact 
exists in American Samoa for their air services, ASG requests a 
technical assistance grant in the amount of $500,000. The grant will 
pay for a marketing report by professional economists on the market for 
U.S. air services in American Samoa. The surveys and evaluations by 
market specialists will then document the precise level of demand in 
the territory for passenger and cargo service between U.S. points and 
Pago Pago. This will also include the additional demand for such 
services in Pago Pago coming from the nearby island nations.
    The marketing report will enable ASG to persuade U.S. air carriers 
that the market demand does exist to justify their providing air 
service in the territory for both passenger and cargo transport.
Assistance to Tuna Industry--Purchase of Cold Storage
    Star Kist has dismantled its cold storage facility that occupied 
ASPA land. Star Kist's loss of its cold storage and the need of the 
local fishing fleet to have cold storage access due to an emerging new 
market provides American Samoa with a unique opportunity. Thus, 
American Samoa proposes to assist its main private sector employer, 
responsible for nearly 80% of the Territory's private sector economic 
activity, and at the same time, assist the local fishing fleet by 
purchasing the 2,400 ton cold storage freezer and relocating it across 
the bay at the Port Administration site immediately adjacent to the 
Port warehouse and making it available to the local fishing fleet and 
the two canneries alike in order to store landed fish.
    The assistance to the local fishing fleet has many varied 
implications for the community. The ability for quicker turn around on 
fishing trips means more trips. More trips means more expenditure of 
money in the local economy for the purchase of provisions, fuel, 
repairs and manpower. Most importantly, with the revival of the alia 
fleet, which has largely lain dormant in recent years, ASG's purchase 
and access to a cold storage unit will assist this renewed industry 
player which will have much the same benefits as the local longline 
fishing fleet. However, access would mean much more to the alia 
community as alia have absolutely no capacity for cold storage on their 
much smaller vessels.
    Because of Star Kist's strategic importance to the Territory, the 
continued availability of this cold storage capacity to the cannery is 
vital to their interests. Star Kist will be ramping up operations in 
March of 2011 in order to increase production pursuant to a significant 
contract award. Because the cold storage will be owned by ASG, Star 
Kist will be charged rent for their use of space within the cold 
storage facility, which will benefit the community through increased 
revenues for the government.
    The cold storage acquisition supports American Samoa's expansion of 
export markets by providing the capacity for the local fishing fleet, 
including the Territory's alia fleet, to store fish for market, while 
maximizing the opportunities to continue fishing. The opening of the 
Asian market for export of fish from American Samoa provides a new and 
untapped market for the Territory. This will provide, in turn, greater 
opportunities for expansion of American Samoa's fishing industry and 
maximize the use of our resources.
South American/Andean Countries Free Trade Agreements
    The Kennedy Administration promoted economic development in 
American Samoa through trade preferences and tax incentives. 
Preferential tariff rates and quotas have supported seafood processing 
in American Samoa.
    But the trade preference for territorial products has steadily been 
diminished by changing American trade policy. Inconsistent 
congressional action--in narrowing, then repealing, then extending 
year-by-year the investment incentive only for companies that had 
qualified in the past--has also undermined the level of economic 
development in American Samoa.
    The expected approval and extension of U.S. Free Trade Agreements 
with Colombia and the Andean countries are additional steps towards the 
elimination of trade preferences for American Samoa. Congress and the 
Administration in prior trade action have addressed the adverse impact 
on American business and workers. The territory requests that the 
Administration and Interior Department in the same manner help American 
Samoa adjust to these trade policy changes. Assistance to develop 
alternative industries and re-train workers is needed.
Conclusion
    In Conclusion, Mr. Chairman, I wish to thank you and your 
colleagues for your time here today and for considering American 
Samoa's input into the FY 2012 budget of DOI OIA. Your support for 
American Samoa's dollars as contained in the 2012 budget is greatly 
appreciated and your consideration and support for the proposals 
discussed here today are critical. Thank you.
    Soifua ma ia manuia.
                                 ______
                                 
    Dr. Fleming. Thank you for that testimony today. And next 
up is Mr. Tom Bussanich. Oh, I am sorry. Before we go with our 
next witness, I want to recognize another Member here today: 
Mr. Southerland from the great State of Florida. Thank you for 
being here, sir.
    So with that, Mr. Bussanich, you have five minutes. We look 
forward to your testimony.

    STATEMENT OF TOM BUSSANICH, DIRECTOR, BUDGET AND GRANTS 
MANAGEMENT DIVISION, OFFICE OF INSULAR AFFAIRS, U.S. DEPARTMENT 
                        OF THE INTERIOR

    Mr. Bussanich. Thank you very much. Mr. Chairman and 
members of the Subcommittee, thank you for the opportunity to 
testify on the President's Fiscal Year 2012 budget request for 
Insular Affairs.
    The Office of Insular Affairs is responsible for the 
Federal Government's relationships with Guam, American Samoa, 
the U.S. virgin Islands, and the Commonwealth of the Northern 
Mariana Islands. OIA also administers financial assistance 
provided to the Freely Associated States.
    The Fiscal Year 2012 Insular Affairs budget totals $474.4 
million, an increase of $23.5 million and two equivalent full-
time positions from the 2012 appropriations. For 2012, 
mandatory commitments include an estimated $145 million for 
fiscal payments to Guam and the Virgin Islands, and $232.1 
million for compact payments to the RMI, FSM, and Palau.
    The request for current appropriations is $97.2 million, a 
decrease of $5.3 million from the 2010 enacted appropriation. 
Included in the current request is also a $10.1 million being 
transferred from Defense for vehicles and supplies for the 
transportation of civilian students on Guam.
    The Assistance to Territories Program includes American 
Samoa operations at $22.8 million; Covenant Capital Improvement 
Projects at $27.7 million; the Office of Insular Affairs, $9.5 
million; General Technical Assistance, $13.8 million; 
Maintenance Assistance, $2.2 million; Brown Tree Snake Control 
at $3 million; Coral Reef Initiative at $1 million; and 
Empowering Insular Communities at $4.1 million.
    General technical assistance allows OIA to provide funding 
for needs that affect multiple insular areas, or specific needs 
that may require quick action. The islands all benefit, and are 
very supportive of the program.
    The $27.7 million for Covenant capital improvement project 
grants is divided among Guam, American Samoa, the Virgin 
Islands, and the CNMI, using a competitive allocation system 
designed to elicit good government accountability.
    For 2012, the $27.7 million will be divided as follows. 
CNMI, $9.5 million; American Samoa, $10.1 million; Guam, $6.1 
million; and Virgin Islands, $2 million.
    In 2012 we are proposing legislative language that would 
allow CIP funding that has languished in a territory's account 
to be redistributed to other territories. When implemented, we 
believe that this change will be a strong incentive for each 
territory to utilize CIP funding more quickly.
    The territories also receive mandatory funding under the 
Compacts of Free Association in the form of Compact Impact. 
Hawaii, Guam, CNMI, and Samoa share $30 million annually to 
defray costs incurred as a result of increased demands placed 
on health, educational, social, or public sector services, or 
infrastructure related to such services, due to the residence 
of immigrants from the FSM, RMI, and Republic of Palau. The 
distribution of this $30 million is recalculated by the U.S. 
Census Bureau once every five years.
    Of the full $474 million budget request for Insular 
Affairs, only $59 million is discretionary. Regarding the Guam 
military buildup, the President's proposed budget includes $2.8 
million for activities intended to lessen the socioeconomic 
burdens on Guam, with the purchase of new public safety 
equipment and technical assistance projects necessary for Guam 
to cope with population pressures.
    Additionally, the request includes $330,000 and two FTEs 
for a Guam field office to monitor and assist Guam with 
military relocation issues.
    Last year the United States and Palau completed their 
review of the financial provisions of the Compact of Free 
Association, and signed a 15-year agreement that includes $250 
million in financial assistance to Palau for the period ending 
in 2024. For its part, Palau will undertake legislative, 
financial, and management reforms. Palau has been a steadfast 
ally of the United States and a strategic partner aiding United 
States' defense interests.
    The 2012 budget includes an initiative called Empowering 
Encircling Communities; $4.1 million is requested. $1.1 million 
would be used to purchase public safety equipment for Guam; the 
remaining $3 million would be devoted to implementing 
sustainable energy strategies.
    The Department of Energy's National Renewable Energy 
Laboratory is analyzing the territories' energy needs and 
prospects, and will provide each territory with an energy 
assessment plan for energy efficiency and renewable energy 
deployment. The $3 million will permit follow-on implementation 
of the N-Rail plans in the territories.
    Another major initiative has been the gathering of data to 
produce GDP statistics. For the years 2002 and 2007, the gross 
domestic product for the territories was determined by the 
Bureau of Economic Analysis to be as follows: Guam's economic 
activity has increased 1.8 percent; American Samoa, .4 percent; 
Virgin Islands has grown at 2.9 percent; and the Northern 
Marianas has declined, at a 4.2 percent annually. The goal for 
the Bureau of Economic Analysis is to incorporate this valuable 
effort in the GDP mandate for the nation.
    Mr. Chairman, I am confident that the President's 2012 
budget request for the Office of Insular Affairs will empower 
insular communities by improving the quality of life, creating 
economic opportunity, and promoting efficient and effective 
governance.
    Thank you very much.
    [The prepared statement of Mr. Bussanich follows:]

   Statement of The Honorable Thomas Bussanich, Director of Budget, 
       Office of Insular Affairs, U.S. Department of the Interior

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to testify on the President's fiscal year 2012 budget 
request for Insular Affairs. The Office of Insular Affairs (OIA) is 
responsible for administering the Federal Government's relationship 
with the territories of Guam, American Samoa, the United States Virgin 
Islands (USVI), and the Commonwealth of the Northern Mariana Islands 
(CNMI). OIA also administers the financial assistance provided to the 
freely associated states (FAS) of the Federated States of Micronesia 
(FSM), the Republic of the Marshall Islands (RMI), and the Republic of 
Palau under the Compacts of Free Association.
    Mr. Chairman, there are several island issues highlighted in this 
statement, but first, below is an overview of the President's 2012 
budget request for the Office of Insular Affairs.
Overview of the FY 2012 Budget Request
    The proposed fiscal year 2012 Insular Affairs budget totals $474.4 
million, an increase of $23.5 million and two full time equivalent 
(FTE) positions from the 2010 enacted appropriation. The OIA budget 
contains two major categories: current and permanent appropriations. 
For 2012, mandatory commitments include an estimated $145.0 million for 
fiscal payments to Guam and the U.S. Virgin Islands and $232.1 million 
for payments under compacts of free association to the RMI, FSM and 
Palau. The request for current appropriations for 2012 is $97.2 
million. This amount is a decrease of $5.3 million from the 2010 
enacted appropriation. Included in this current appropriation request 
are $59.5 million in discretionary funding and $27.7 million in 
mandatory funding, plus $10.1 million being transferred from Defense 
for vehicles and supplies for the transportation of civilian students 
on Guam.
    The fiscal year 2012 OIA budget will focus on strategies that 
empower insular communities through programs that improve quality of 
life, create economic opportunity, and promote efficient and effective 
governance. Assistance to Territories programs include (1) American 
Samoa Operations ($22.8 million), (2) Covenant capital improvement 
projects ($27.7 million), (3) Office of Insular Affairs ($9.5 million), 
(4) General Technical Assistance ($13.8 million), (5) Maintenance 
Assistance ($2.2 million), (6) Brown Treesnake Control ($3.0 million), 
(7) Coral Reef Initiative ($1.0 million), and (8) Empowering Insular 
Communities ($4.1 million).
    The three largest components of Assistance to Territories are 
American Samoa Operations, General Technical Assistance, and Covenant 
capital improvement project grants.
    American Samoa Operations, with its budget request of $22.8 
million, is the second largest budget activity in Assistance to 
Territories. While it is considered a discretionary item, it is a 
directed appropriation that provides essential assistance to help the 
American Samoa Government provide basic services of health care, 
education, and support for the judiciary.
    General Technical Assistance, for which OIA requests $13.8 million 
in 2012, allows OIA to provide funding for addressing needs that affect 
multiple insular areas or specific needs that may require quick action. 
The islands all benefit and are very supportive of the program.
    The largest component of Assistance to Territories is the $27.7 
million for Covenant capital improvement project grants (CIP). These 
funds are divided among the United States territories of Guam, American 
Samoa, the U.S. Virgin Islands and the CNMI using a competitive 
allocation system designed to elicit good-government accountability in 
the territories. This process uses a set of 10 objective criteria that 
measure the demonstrated ability of the territorial governments to 
exercise prudent financial management practices and to meet Federal 
grant requirements. These criteria include compliance with the Single 
Audit Act of 1984 and Federal grant project reporting requirements. The 
scoring process and all 10 criteria are explained on page 28 of the 
2012 budget justification. Every year OIA provides each territorial 
government with the detail of their scoring for the 10 criteria and 
notifies them of the resulting CIP award amount. For 2012, the $27.7 
million will be divided as follows:
            CNMI                       $  9.5 million
            American Samoa             $10.1 million
            Guam                       $  6.1 million
            U.S. Virgin Islands           $  2.0 million
    Building upon our efforts to increase accountability for Covenant 
CIP funds using the competitive criteria, in 2012 we are proposing 
legislative language that would allow CIP funding, which has languished 
in a territory's account with an expenditure rate of less than 50 
percent over five years, to be the basis of withholding or 
redistributing current year CIP funding to other territories. When 
implemented, we believe this change in procedure will be a strong 
incentive for each territory to utilize CIP funding more quickly for 
its intended purpose. Expenditure rates are calculated annually and 
shared with the territorial governments as part of the competitive 
criteria.
    The territories also receive mandatory funding under the Compacts 
of Free Association in the form of Compact Impact. Section 104(e) of 
Title I of the amended Compacts of Free Association provides $30.0 
million annually through 2023 to aid in defraying costs incurred as a 
result of increased demands placed on health, educational, social, or 
public sector services, or infrastructure related to such services, due 
to the residence of qualified non-immigrants from the RMI, the FSM, or 
the Republic of Palau. The distribution of this $30.0 million is done 
as required by law based on the size of the FAS populations in each 
affected jurisdictions as calculated by the U.S. Census Bureau once 
every five years.
    Of the full $474.0 million budget request for Insular Affairs, only 
$59.0 million is discretionary.
Highlighted 2012 Budget Changes
Guam Military Build-up
    Long-term security interests of the United States in the western 
Pacific call for the relocation of 8,000 Marines and 9,000 dependents 
from Okinawa to Guam. This move will create major challenges for Guam's 
infrastructure in 2012 and subsequent budgets. Guam's population is 
expected to grow by 20 percent by 2016. In addition to inadequate port, 
road, power, water, wastewater, and solid waste systems shared by the 
military and the civilian community, Guam also faces a need to improve 
its healthcare and educational facilities, and to improve its public 
sector management. Guam will be forever changed by the military's 
build-up and its increased strategic visibility. Community support for 
this endeavor may be undermined if civilian facilities remain 
inadequate to meet the growing resource needs of the larger population.
    For this reason, the President's proposed 2012 budget for the 
Office of Insular Affairs includes $2.8 million for activities intended 
to lessen the socio-economic burdens on Guam that will result from the 
Marines' relocation from Okinawa to Guam. The 2012 budget would fund 
the purchase of new public safety equipment and technical assistance 
projects necessary for Guam to cope with population pressures.
    Additionally, the request includes $330,000 and two FTEs for a Guam 
field office to monitor and assist Guam with military relocation 
issues.
    The 2012 budget also accounts for a $10.1 million appropriations 
transfer from the Department of Defense to OIA for vehicles and 
supplies for the transportation of civilian students on Guam.
Palau Compact of Free Association
    Last year, the United States and Palau completed their review of 
the financial provisions of the Compact of Free Association between the 
two countries. The two nations signed a fifteen-year agreement that 
includes payment by the United States of $250.0 million in financial 
assistance to Palau for the period ending in 2024. For its part, Palau 
is committed to undertaking economic, legislative, financial, and 
management reforms. Palau has been a steadfast ally of the United 
States for many years. In the western Pacific, Palau is a strategic 
partner aiding United States defense interests. The President's 2012 
budget includes no current appropriations for the Palau Compact. Once 
approved by the Congress as proposed in S. 343, the new agreement will 
be funded and a permanent appropriation of $250.0 million with a payout 
to Palau of $29.3 million in 2012.
Empowering Insular Communities
    The President's 2012 budget request for Insular Affairs includes an 
initiative called ``Empowering Insular Communities.'' The program is 
intended to strengthen the foundations for economic development and 
investment in the territories, including power, water, sewer, solid 
waste, healthcare and public safety. The request for this program is 
$4.1 million.
    In the first year of this program, $1.1 million would be used to 
purchase public safety equipment for Guam to help satisfy the new 
public safety needs occasioned by the military relocation to Guam.
    The remaining $3.0 million would be devoted to implementing 
sustainable energy strategies. All of the territories and freely 
associated states suffer acutely because of their dependence on 
expensive fossil fuels. Territories often are forced to pay 40 cents 
per kilowatt hour for electricity--four times the rate in the 
continental United States. Utilizing $750,000 in general Technical 
Assistance funding last year, the Office of Insular Affairs entered 
into an agreement with the Department of Energy's National Renewable 
Energy Laboratory (NREL) for analyses of the territories' energy needs 
and prospects. As part of the plan, the territories' governors visited 
NREL facilities in Colorado. This year, NREL will provide each 
territory with an energy assessment and initial plans for energy 
efficiency and renewable energy implementation and deployment. The $3.0 
million budgeted for Empowering Insular Communities would permit 
follow-on implementation of the NREL energy plans in the territories.
Private Sector
    OIA has recognized a need for ongoing continuous linkages between 
private sector businesses in the territories and freely associated 
states with potential investors in Hawaii and the United States 
mainland. Therefore, OIA is perfecting its web-based listing of 
business opportunities in the islands known as ``Island Business 
Link.'' In the past, this has been accomplished through conferences, 
trade missions and our Island Fellows Program. These events created 
excitement and identified opportunities but previously they were not 
continuously available. Now, users of ``Island Business Link'' register 
by completing a form describing their business opportunities. A 
business on the United States mainland or anywhere in the world can 
then connect with another user through the Internet. The objective is 
to initiate the connection and facilitate discussion for a possible 
business relationship. It is then up to the users to communicate and 
follow-up with opportunities that benefit each other and the island 
community involved.
Statistics Improvement
    Another major OIA initiative has been the establishment of Gross 
Domestic Product (GDP) statistics for the four United States 
territories. In 2008, OIA entered into a $1.6 million agreement with 
the Bureau of Economic Analysis of the Department of Commerce for the 
gathering of data to produce GDP statistics. For the years 2002 through 
2007, the GDP for the territories was determined to be as follows:
            Guam                       1.8 percent annual increase
            American Samoa               .4 percent annual increase
            Virgin Islands                 2.9 percent annual increase
            Northern Mariana Islands       4.2 percent annual decrease
    With the basic data collected, the annual cost of maintaining the 
statistics is $600,000, which is provided for in the 2012 OIA budget 
request. The goal is for the Bureau of Economic Analysis to incorporate 
this valuable statistics effort in its larger GDP mandate for the 
Nation.
Federal Responsiveness
    Mr. Chairman, while there is no direct budget implication, last 
April, President Barack Obama signed Executive Order 13537, which 
strengthened the Interagency Group on Insular Areas (IGIA) by 
establishing IGIA co-chairs: the Assistant to the President and 
Director of Intergovernmental Affairs, and the Secretary of the 
Interior. Co-chair Cecilia Munoz and Assistant Secretary Anthony M. 
Babauta, on behalf of the Secretary, welcomed more than twenty Federal 
agencies to yesterday's IGIA meeting where numerous territorial issues 
were discussed with territorial leaders. Strengthening the IGIA has 
improved agency responsiveness and collaboration on Federal policy 
issues with respect to the territories. The IGIA looks forward to more 
direct participation of the White House as we attempt to resolve 
sometimes difficult and seemingly intractable territorial issues.
Conclusion
    I am confident the President's 2012 budget request for the Office 
of Insular Affairs will empower insular communities by improving 
quality of life, creating economic opportunity and promoting efficient 
and effective governance.
                                 ______
                                 
    Dr. Fleming. Well, thank you, Mr. Bussanich, for your 
testimony today. Very clear and cogent; a lot of numbers, but 
very important numbers for us to consider.
    At this point, we will begin questions of the witnesses. To 
allow all Members to participate and to ensure we can hear from 
all of our witnesses today, Members are limited to five minutes 
for their questions. However, if Members have additional 
questions, we can have more than one round of questioning.
    I now recognize myself for five minutes for questioning.
    During my military career I spent time on Guam. I was 
stationed there from 1979 to 1981 while in the Navy. Delivered 
a lot of babies at the Navy Hospital there. But I also, Ms. 
Bordallo, I worked part time in the hospital there, in the 
emergency room, as well as for the drug and alcohol rehab, the 
methadone program and so forth.
    I have a special place in my heart for Guam still. My 
eldest daughter was born there. And also, I hear what you are 
saying about the brown snake, because at least once a day, if 
not twice or three times, the electricity would go out, and the 
brown snake always got the blame for it. I am not sure if that 
was the case, but I understand it is still a problem.
    The time I spent on the island afforded me the opportunity 
to understand the unique attributes of the territories and 
their geographic remoteness. While I understand each island 
community is unique, there seems to be a common thread running 
across them, which is the reliance of the local work force on 
governmental jobs.
    Similar situations are occurring here in the States. 
However, during these tight budget times, we need to refocus 
and look toward the private sector.
    I would like to discuss with you both how the private 
sector can be developed on each of the territories by local 
entrepreneurs, not foreign investors, with the intent of making 
use of the local work force.
    Mr. Bussanich, how does the Office of Insular Affairs 
support private-sector development in the territories?
    Mr. Bussanich. Mr. Chairman, we do it in a number of ways. 
One of the new initiatives that we have is the creation of a 
web-based linking of business opportunities in the islands, 
that we call the Island Business Link. This is on the Internet, 
and allows the, it allows people with interest in doing 
business and island businesses to make connections with other 
business people throughout the United States, to connect and 
facilitate for a discussion for business relationships.
    But in large measure, a lot of our role is to provide the 
basics for the private sector to operate. Certainly there are 
enormous needs for the type of economic infrastructure that 
underpin an appropriate environment for investing. And that is 
why we do invest significant amounts into water, power, and 
different physical infrastructures, so that the islands are a 
place that somebody can do business.
    In addition, we have also assisted in the development of 
economic development plans, certainly in the area of tourism, 
and have directed investments in areas related directly to 
tourism, such as in the CNMI, the Plaza there, and elsewhere.
    Dr. Fleming. Yes. My concern is, and we have seen this 
happen before, is, other folks come in from the outside; they 
set up their entrepreneurial enterprises. And then, when there 
is something else that is maybe more profitable, they leave, 
and then there goes the business.
    We have heard this with some factories and so forth. So 
certainly there is a tremendous need to have, if you will, 
indigenous entrepreneurship on the islands.
    Governor, a follow-up question. Has the Island Business 
Opportunities shown results in terms of creating jobs?
    Mr. Bussanich. I believe that it has. It is difficult to 
quantify completely.
    Dr. Fleming. I would love to have some specific numbers on 
that, but I understand that today you may not be in a position 
to provide those. So if you could get back to us with that, we 
would love to have that information.
    Mr. Bussanich. I would be pleased to do that, sir.
    Dr. Fleming. Governor Tulafono, what actions can be taken 
to further develop the American Samoan economy?
    Governor Tulafono. Thank you, Mr. Chairman. American Samoa, 
as well as some of the insular areas, are greatly affected by 
policies of our nation that apply very well for the 50 states. 
But as applied, tends to create obstacles toward economic 
development for the territory. At least in my case, in American 
Samoa.
    I can point to the effect of free trade agreements, that 
affects the way we do business. Our major industry is the tuna 
canning industry. And appropriately, even as long ago as maybe 
30 years, when Section 936 tax credits were available, the only 
two companies that were attracted to the territory by that were 
the canneries. And we have tried to nurture the relationship 
with the canneries since that time.
    However, when the minimum wage came into effect and the 
territories of American Samoa and CNMI became part of that law, 
the wages increased so substantially that it affected the way 
the industry was doing business. And to some degree, I would 
say to a large degree, it caused the closure of the cannery 
that I mentioned. And it is still threatening the future of our 
main industry.
    So if I were to ask for anything, I would ask that there be 
some way that Congress can focus on the uniqueness of the 
territories and the way they do business, and the way that they 
are negatively and adversely affected by policies that are 
beneficial to our states. And I think that is the main thing 
that we would ask for.
    Dr. Fleming. Well, thank you both for your kind responses. 
So next up is the gentlelady from Virgin Islands, Dr. 
Christensen. You have five minutes.
    Dr. Christensen. Thank you, Mr. Chairman. And thank you 
both for your testimony.
    Mr. Bussanich, H.R. 1, which funds the government for the 
remainder of the fiscal year, and passed the House about two 
weeks ago, would cut the General Technical Assistance budget by 
8.33 percent. And you know how important this technical 
assistance is to my colleagues and I.
    Can you tell us what that cut would mean, and maybe give us 
some examples of what kind of activities might not be able to 
be carried out? And as you answer that, would you also include, 
what has been the average level of funding for assistance for 
the territories over the past 10 years? Has it increased, 
decreased, or has it stayed the same?
    Mr. Bussanich. In general terms, the amount of 
discretionary spending that the Office has had has remained 
pretty much flat. It has been in a flat range of money. There 
have been some years where it has gone up and gone down.
    The impact on our Technical Assistance Program I think is 
really best demonstrated by the fact that under the Continuing 
Resolution, we are essentially finished with making grants for 
this year. And that particular program, as you may recall or as 
you know, is based on input from the islands. Much of it is 
generated by the Governors, based on the immediate needs of the 
islands, and always a significantly larger amount is requested 
than we ever have available. It certainly would be in the $30 
million range, and our resources are a third of that amount.
    So we basically are done for this year, and there are any 
number of pending requests that cannot be considered or will 
not be considered.
    Dr. Christensen. Thank you. Thank you for that answer, 
because I am sure that there are some from the Virgin Islands 
and from every one of us that will not be able to be, would not 
be able to funded if we enact H.R. 1.
    Governor, again, thank you for being here; I know you are 
far away from home. In reading your testimony and listening to 
you, you have taken the fiscal bull by the horns and made the 
really difficult decisions.
    You recently announced that you and your Cabinet members 
will join other territorial government employees in taking pay 
cuts, as American Samoa, who tries to close a budget deficit. 
And you indicated that you expect the territory to save $3.27 
million a year by reducing work hours and pay for about 2500 
employees, starting this month.
    So we talked about the reasons that led you to take such 
drastic measures. But how could the budget that we are 
considering today impact future decisions you will have to make 
to address American Samoa's fiscal condition? And what would 
any cuts to, I guess it is the $27.7 million plus the CIP 
funding, what would any cuts do to the already difficult 
position you are in?
    Governor Tulafono. Any further cuts to the program that the 
OIA provides will further reduce our ability to reverse the 
conditions that we have undertaken--as our tax base is reduced 
with the loss of many jobs. And sometimes it feels strange to 
say that we have lost just a little over 2,000 jobs. But when 
you are talking about the economy of 68,000 to 70,000 
population, that is a huge number of jobs. And especially if 
you look at the economic numbers that we have provided, it is 
that our employment grew from 5 percent to over 20 percent in 
just a little over three years, because of the losses in 
industry.
    So whatever is taken away from us with any cuts, it means 
that we will have to fare for ourselves from local funds, which 
you have already seen the serious trend that we are 
undertaking, requiring pay cuts, and the salary furloughs.
    Dr. Christensen. And you are talking about salaries that 
are very, very low already, by American standards. If I could 
just squeeze in one last question.
    Mr. Bussanich, there are no funds included in the budget 
for Palau. How important is that funding to the new agreement 
with Palau?
    Mr. Bussanich. There is no current-year funding requested 
in the budget. There is a legislative package, I believe it is 
S. 343, that has been introduced in the Senate, that 
incorporates the Administration's proposal for Palau. That 
includes the 20-year funding period.
    The Administration believes that enacting this agreement is 
significant because of Palau's position in the Pacific, its 
long history with the United States, its proximity to Guam, and 
its continued support for the United States.
    So certainly we look forward for the enactment of that 
statute. Otherwise, Palau will be relying completely on its 
trust fund resources established under the first Compact of 
Free Association Funding.
    Dr. Fleming. I am going to have to get used to flipping 
this thing on and off; I apologize.
    I thank our witnesses and their responses. I would like to 
now recognize Mr. Flores from the great State of Texas, and 
also the Congressman for my eldest daughter, the same one born 
on Guam.
    Mr. Flores. Well, thank you, Mr. Chairman. By the way, 
Texas is celebrating its 175th anniversary of independence 
today, so there are a lot of celebrations in Texas.
    Governor Tulafono and Director Bussanich, thank you for 
joining us today. As I understand it, in recent history there 
was a mandated increase in the minimum wage to be paid to 
employees in American Samoa, and that had some impact on the 
economics of doing business in the islands.
    Can you tell me what that impact was? And if that were to 
be rolled back, would that help your net employment situation?
    Governor Tulafono. Sir, a roll-back would be tremendously 
helpful. And the increases in the minimum wage has, in our 
opinion, caused devastating effects on the economy of American 
Samoa. And in talking to Governor Fitial, it has done the same 
for his territory. We were the only territories affected by 
that law.
    For us, we believe that, one, it has accelerated the 
closure of one cannery, and threatening the future of the other 
canneries that are attempting to do business in American Samoa. 
And I think the GAO report that is forthcoming will again 
support our view, that it has caused the canneries to be 
unsuccessful, and for the most part, unprofitable; therefore, 
threatening the losses of more jobs.
    For the Government of American Samoa, it has added greatly 
to its cost of operations. And we haven't been able, and having 
a difficult time raising revenues to make up for it.
    We have attempted to accommodate the increases by adjusting 
internally, without having to raise taxes. But as you have 
heard, that we are finally resorting to cutting hours, and 
possibly cutting employment, if the trend does not reverse. 
Because as a result of the losses of jobs, we have lost a lot 
of revenue. And also a tremendous reduction in corporate income 
taxes, because they have also had to lay off workers from their 
own employment in the local service businesses.
    Mr. Flores. Sir, thank you. Director Bussanich, do you have 
anything to add to that?
    Mr. Bussanich. Very little, sir. I think certainly the 
Governor has explained the circumstances in American Samoa, and 
made reference to the Northern Marianas.
    I would note that there has been a two-year suspension in 
implementing the minimum wage due to economic circumstances, 
which should have some effect on the private sector. Beneficial 
effect.
    Mr. Flores. And Governor, is there still uncertainty 
because you have a two-year delay in the implementation of 
that? It is still causing the uncertainty and the lack of 
private sector job growth?
    Governor Tulafono. Absolutely. As a matter of fact, as we 
talk to potential investors, the uncertainty of not knowing 
where the policy is going to be going is causing people to 
delay making investments. And we have managed to attract back 
another cannery, but so far has not been able to launch any 
meaningful operations. And the greater portion of their 
concerns is what will happen in 2012.
    Mr. Flores. OK, thank you. Director Bussanich, you 
mentioned that the inadequacy of the infrastructure--by the 
way, I am shifting gears to Guam for a minute. You mentioned 
the inadequacy of existing infrastructure in connection with 
our increased military presence in Guam.
    Do you have an idea of the total infrastructure cost that 
it will take to get us to where we are not inadequate any more?
    Mr. Bussanich. I almost hesitate to speak about numbers 
about that, because there have certainly been a number of 
studies that have been looked at by, within the Executive 
Branch and with the Government of Guam.
    And in terms of overall just civilian infrastructure, it is 
a significant amount of money. And it far exceeds the resources 
available certainly through the Department of the Interior to 
do that.
    As I say, I hesitate to put a tag on that number, but it 
has been in the hundreds of millions of dollars, by some 
estimates.
    Mr. Flores. Hundreds of millions, you said? OK. I was just 
directionally looking, is it billions or tens of billions, but 
you are talking hundreds of millions.
    Mr. Bussanich. Hundreds of millions just on the civilian 
side.
    Mr. Flores. OK. And it looks like I am out of time. Thank 
you.
    Dr. Fleming. I thank the gentleman. And now I recognize Mr. 
Sablan for five minutes.
    Mr. Sablan. Thank you, Mr. Chairman. Mr. Bussanich, good 
morning. And good morning, Governor. Thank you for being here 
with us today.
    I just want to let you know that I take some issues with 
the proposed administrative language pursuant to the 
arrangement being proposed on the distribution of Covenant 702 
money. Because, in the first place, the reference to that 
money, Covenant 702 is a covenant that established the 
permanent relationship, political relationship, between the 
United States and the Northern Mariana Islands.
    And for some reason, maybe because we had no representation 
here in Congress until the last Congress, that money was being 
used for others who have no covenant relationship with the 
United States. But it is all right, we will leave it at that.
    And it is also, I take issue, you know, it is very hard, 
because we are going to be dealing with the person that is 
here. And you know, we have statisticians working the numbers; 
sometimes it doesn't work toward my advantage. So I just want 
to let you know.
    I am going to ask you a question. When is the first Marine 
going to land on Guam? Any idea? Because you are planning here, 
you know, millions of dollars for this eventuality. And do you 
know when they are landing on Guam?
    Mr. Bussanich. I honestly don't know the answer to that 
question.
    Mr. Sablan. And you are providing all this money for that 
eventuality. Public safety, school buses. I mean, no problem 
with that. I just want to know when.
    Mr. Bussanich. If I may just consult for a moment.
    [Pause.]
    Mr. Bussanich. Sir, where we are, we really don't know 
exactly. I know that most of the details are still being worked 
out.
    Mr. Sablan. OK, thanks.
    Mr. Bussanich. But it is our belief that it will take 
place.
    Mr. Sablan. Yes, I know it will take place. And we should 
support Guam for that, no question about it. I am just 
concerned that right now in my district, in the Northern 
Marianas, in Saipan we have three patrol cars. Three. And lucky 
if those three are operating. Because one or two of them would 
be broken. And crime is climbing. And I need help. Crime is 
climbing. And this is not, you know, I am not asking for 
government jobs here.
    But while you are proposing for $2.8 million under the Guam 
buildup for public safety equipment and technical assistance, 
another $1.1 million for new public safety needs occasioned by 
the military under the empowering issues, so you have almost $4 
million basically for public safety for Guam in anticipation of 
the buildup.
    Again, we should support the buildup. But we should also 
understand there are needs in the other jurisdictions.
    I would like to compliment OIA for taking the initiative to 
help us out with the BEA analysis. For the first time we are 
getting real numbers. Unfortunately, the Northern Mariana 
Islands is the only one who saw a decrease in their GDP, a 
serious decrease of 4.2 percent. Everyone had an increase; the 
Northern Marianas have seen a decrease in GDP of almost 5 
percent, Mr. Chairman. And that is how serious the situation 
is.
    And that is how serious it is that we need to continue to 
maintain an increase in minimum wage. So that government 
employees would be eventually enticed to move into the private 
sector. Unfortunately, some people in this government want to 
continue, want to bring back minimum wage to three dollars an 
hour. I cannot imagine how a family of four could survive on 
minimum wage in the Northern Mariana Islands, when I know of a 
family who pays over 60 percent of their income just to 
utilities. They pay over 40 cents a kilowatt hour for 
utilities. Gasoline is almost five dollars a gallon. A sack of 
rice is over $30. And we are going to ask people to reduce the 
minimum wage? That is immoral. And I will continue to fight 
that here in Congress so that it doesn't occur.
    And then we are encouraging people in the government to 
move to the private sector, Mr. Chairman. And for someone, I 
understand that is an issue for American Samoa. But for the 
Northern Mariana Islands, we are encouraging people to move 
from the government to the private sector, and yet we don't 
want to give these private sector employees the decent wage for 
their services that contribute to the bottom line of the 
businesses, of the companies that do business there? I take 
issue with that.
    And I yield back my time, Mr. Chairman.
    Dr. Fleming. OK. Thank you. Very interesting questions and 
responses; a lot of important issues raised.
    I now would like to recognize the gentleman from Florida, 
Mr. Southerland.
    Mr. Southerland. Thank you, Mr. Chairman. Governor, I thank 
you for being here.
    Tell me, outside, as a new member of this Committee and 
really learning about the issues that you face, and your 
citizens, tell me outside of the tuna canneries what type of 
private sector opportunities exist. It really pertains to small 
business. I am a small business owner, and so, you know, our 
family has been in small business for multiple generations.
    So I am interested because I don't know of your citizens 
and the challenges that you face. I am learning. Could you 
address that?
    Governor Tulafono. I would be happy to. And most anything 
is available. And the tax credit scheme that was in place 
before was calculated to entice American businesses to the 
territories. It was successful for some. But speaking solely 
for American Samoa, we only attracted two canneries and a 
couple of other businesses that came up, and only took three 
years. Which caused me to change my policy that new investments 
will have to partner up with local business, so that if they 
choose to leave, that at least, you know, a local company can, 
if they want to, they can then take over that business.
    Small manufacturing is very possible. Reassembly plants are 
very possible. Forward stations for mail order businesses are 
very possible. All of these are possible, except that they need 
to relate their investments to the cost of doing business on 
the islands.
    The cost of doing business on the islands is fairly 
expensive, more expensive than in the States. I was hoping I 
would have a chance to respond to Congressman Sablan's comments 
about the minimum wage.
    What we had proposed from American Samoa all along was that 
there be a special way of considering wages. Before the law 
changed in 2007, we had a Special Industry Committee that meets 
every two years. Some people have challenged that committee as 
ineffective, but we had proposed to improve on that committee 
how it was organized, what its work, and how the Federal laws 
may change that makes the hearings more meaningful.
    For example, we pointed to a law prior to 1998, 1992, that 
required the canneries to provide full financial statements and 
even proprietary information, so that wages can adequately be 
considered. That was changed, and it was taken away from the 
law. And from that time, it was difficult to really determine 
where exactly the cannery's position was.
    So it became an exercise in futility, because no one really 
knows. So they ended up with increases of two cents a year, two 
cents every two years. And we had been upset about that.
    And trying to maintain those interests, we need to 
correlate how wages increase in conjunction with economic 
activity, economic growth and jobs and things like that.
    Mr. Southerland. Well, one thing I found interesting, that 
you have had a suspension of the implementation of the minimum 
wage for two years, because you say, or your statement was that 
it still, that two years still creates, it doesn't eliminate 
the uncertainty, in your testimony.
    Governor Tulafono. That is correct.
    Mr. Southerland. OK. And I agree with you. As a small 
business owner, we don't plan our business on two-year cycles. 
And yet, we just got through going through I think a tax 
battle, prior to this Congress, to extension of tax rights for 
two years.
    So I find that you agree with a small business owner. To 
invest millions upon millions of dollars into a community and 
think that you can get a return on your investment in two years 
in order to repay that back, that is not realistic.
    I am a multi-generational business. We plan for 30, 40, 50 
years on your investment. So I agree with you. I think you 
understand that very well. I appreciate you being here today. 
Uncertainty is something that we face not just in the islands, 
but also here in the States. And we have to do a better job I 
think of creating that certainty going forward. Thank you.
    I see my time is up. Mr. Chairman, I apologize. I yield 
back the time I don't have.
    Dr. Fleming. Thank you. No, you did an excellent job. 
Excellent job. I thank the gentleman from Florida.
    Next up we have questions from Mr. Faleomavaega. You are 
up, sir, for five minutes.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I think it is 
great that we have two physicians that make up our 
Subcommittee, and I certainly want to congratulate you, Mr. 
Chairman, for attaining the Chairmanship of this very important 
Subcommittee. And Dr. Christensen, as well.
    It is somewhat ironic that we have three Members who have 
experience not only of living in Guam, but understanding the 
appreciation of the good people of Guam, the Chamorros, who are 
ably represented by our colleague from Guam, The Honorable 
Delegate Madeleine Bordallo.
    It is unfortunate that our colleague, Mr. Flores, had to 
leave. I wanted to give him a little perspective about the 
minimum wage issue, as we have discussed it earlier this 
morning.
    The minimum wage issue did not just start with American 
Samoa the past couple of years. We did a little review on how 
this whole thing came about. It became a national issue. And 
the fact of the matter is that in the early 1900s, the people 
working in the South, in the Southern States, were paid poor 
wages: 10 cents an hour, 15 cents an hour.
    And it got to the point where the Senators and the Members 
of Congress debated the issue. Should there be a national 
minimum wage? Because our fellow Americans living in the South 
were poorly paid by a lot of these corporate types that came 
from the Northern States, set up factories and all of this, and 
that is what happened.
    So in 1938, a minimum wage law was established to give our 
working people some sense of justice in terms of the challenges 
that they were confronted with.
    Now, the irony of all this is that the territory of 
American Samoa was included as part of the minimum wage 
standards that we had set up. But something happened.
    In the mid-1950s we had the CEO and the top executives of 
these tuna canneries that came and testified before the 
Congress, and said it takes three to five Samoans to do the 
work of one person from the mainland. Which I felt, after 
reading the transcripts, was very insulting.
    And so what happened, the Congress set up this special Wage 
Committee, supposedly to measure exactly what the economic 
standing is of this territory. So that way the so-called 
minimum wage could have been adjusted.
    So we set up this committee that every two years, they 
meet. But the problem here, and I wanted to share this with my 
colleague from Texas, is that it isn't the small businesses 
that were running the operations. There were companies like 
Purina Foods, Van de Kamp, Heinz Corporation that owns 
Starkist, Del Monte that also owns Starkist. So it was the big 
corporations.
    And as the government had said earlier, we had minimum wage 
increases as a result of this because of the pressures brought 
forth by these canneries. Two-cents-an-hour increases, three-
cents-an-hour increases. What can you possibly do with an 
increase of 24 cents a day, and you are working your butt off, 
and exporting tens of billions of dollars of canned tuna from 
this little territory of American Samoa?
    So the issues that we were confronted with is that to say 
that the cost of living is less in the territory, but the fact 
of the matter is we never knew what is the cost of living. And 
I think this has been one of the most difficult issues that I 
have tried, for all these years, in trying to figure out what 
is the real economic standing of the territory. And that has 
been the problem that we have had dealing with the minimum wage 
issue for all this time.
    So I just wanted to share that with my colleagues in 
understanding the issue a little more.
    I wanted to again thank Governor Tulafono for his, for his 
statement, and just wanted to ask him, what is the current 
status of the new cannery now that is brought forth in the 
territory, Tri-Marine? What is the approximate investment that 
Tri-Marine has now made in coming in as the second cannery to 
operate in the territory?
    Governor Tulafono. So far Tri-Marine has spent 
approximately $2.5 to $3 million to purchase the old plant from 
Chicken of the Sea International.
    As we speak, there is a team at home now inspecting and 
retrofitting a portion of the plant, to split it off to do a 
new kind of fish processing. This will be the fresh-frozen fish 
exported to, to mostly to Japan. And some of the skipjack tuna 
will be coming to the East Coast, the United States.
    Mr. Faleomavaega. I am sorry, Governor, my time is running. 
But just one more question, Mr. Chairman.
    In bringing this new cannery now to the territory, we are 
looking at ultimately, how many jobs are we looking at? When 
this new cannery starts its operations and getting everything 
set up.
    Governor Tulafono. Initially it will be between 80 and 150 
jobs, depending on how fast the fresh-frozen will grow. And 
that portion can grow to as many as 200 jobs.
    For the cannery, they are expecting to add 800 jobs.
    Mr. Faleomavaega. OK, thank you. Thank you, Governor. I 
want to wait for the second round. Thank you, Mr. Chairman.
    Dr. Fleming. Yes, excellent questions, very interesting 
issue, this whole idea of where minimum wage should be.
    I now recognize Mr. Pierluisi for five minutes, sir.
    Mr. Pierluisi. Thank you, Mr. Chairman and Ranking Member 
Christensen, for convening this hearing. I will have a brief 
statement. And I thank the witnesses, by the way, but I will 
have no questions.
    With respect to the Insular Affairs budget, I want to 
associate myself with the views admitted for the record by 
Governor de Jongh from the U.S. Virgin Islands regarding the 
unfunded Insular Energy Program.
    Our economic development is dependent on reliable, 
affordable energy. Yet, the cost of energy for Americans 
residing in Puerto Rico and the other territories is 
extraordinarily high as compared to their fellow Americans in 
the mainland.
    The program authorized by the Energy Policy Act of 2005 
would advance work toward the deployment of renewable energy 
technology. Regrettably, the recent update to the 1982 
Territorial Energy Assessments omitted Puerto Rico, despite the 
fact that the underlying organization encompasses the island.
    I ask that officials of the Interior Department remain 
cognizant and supportive of extending these energy solutions to 
all of the territories. It is worth noting that Puerto Rico and 
the U.S. Virgin Islands have already begun work to study the 
feasibility of grid interconnection, which is laying the 
groundwork for implementing these energy solutions.
    I would also like to speak briefly about the work of the 
Bureau of Economic Analysis, which is supported by the Insular 
Affairs budget. The bureau's measurements produce GDP 
statistics for the territories, which help inform policy 
decisions and gauge economic activity. It is important that 
Puerto Rico not be overlooked by the bureau in the execution of 
its mission. GDP statistics produced for the 50 states, D.C., 
and now the territories, should also extend to Puerto Rico. So 
please, just keep that in mind.
    Thank you.
    [The prepared statement of Governor de Jongh follows:]

Statement submitted for the record by Honorable John P. de Jongh, Jr., 
                  Governor of the U.S. Virgin Islands

    Chairman Fleming, Ranking Member Christensen, and Distinguished 
Members of the Subcommittee, I am pleased to have the opportunity to 
present the views of the Government of the U.S. Virgin Islands 
(``Government'' or ``GVI'') on the Department of the Interior's 
(``DOI'') Office of Insular Affairs (``OIA'') spending and the 
President's FY 2012 budget request for OIA. I understand that the 
Subcommittee at this hearing will also consider comments regarding 
other federal programs and issues of concern to the Insular Areas. My 
comments accordingly will address not only funding under OIA Technical 
Assistance, Covenant Grant, and Wastewater programs, which are in 
urgent need of increased funding, but also the energy-related program 
for Insular Areas administered by the Department of Energy that merits 
funding but for which Congress has not yet provided the necessary 
appropriations. Collectively, these comments are intended to strengthen 
and enhance programs which help improve the lives of our U.S. citizens 
in the Virgin Islands and the other Insular Areas.
    But first, I would like to thank the Chairman for his leadership 
and efforts to ensure that this country responds vigorously and 
appropriately to the critical challenges the Insular Areas face. Under 
his leadership, we believe that the Committee on Natural Resources and 
the 112th Congress will reaffirm, and abide by, the principle that 
Congress has an important responsibility to ensure that the U.S. 
Insular Areas are treated fairly and equitably in all federal programs 
and economic policies.
    My comments today will focus on three specific DOI programs, 
including the Technical Assistance, Covenant Grant, and Wastewater 
programs, and what we hope will be an effective Department of Energy 
program to implement the Insular Energy provisions of the Energy Policy 
Act of 2005.
OIA Technical Assistance Program
    In the past, OIA has used the Technical Assistance Program 
(``TAP'') largely to provide federal assistance to address the unique 
economic and other needs of the Insular Areas. In particular, TAP 
grants have been awarded to improve the productivity and efficiency of 
Territorial governments (e.g., by funding training programs), as well 
as to address specific requests of Territorial Governors for financial 
support for critical projects not otherwise funded through, or 
addressed by, other OIA programs such as, most recently, the study of 
the uninsured in the Virgin Islands.
    The Technical Assistance Program has been--and continues to be--an 
essential program that has not only enhanced institutional and 
governmental capacity in the Insular Areas, but has also resulted in 
practical and tangible benefits for our people. For example, the study 
of the uninsureds in the Virgin Islands, which could only have been 
funded by the TAP, has produced essential data which will enable the 
Government to make better informed and strategic decisions in the 
implementation of healthcare reform in the Territory. While the funding 
for this study was relatively modest, it will have enormous impact over 
the next several years as the Government develops its reform strategies 
and plans. Thus, while the needs of the Insular Areas continue to be 
great, especially during the current economic crisis, the ability of 
Territorial governments to respond would undoubtedly be lessened in the 
absence of the Program. Accordingly, I urge the Subcommittee to 
continue to support, and, if possible, increase funding for, this vital 
Program.
    In particular, I respectfully request that Congress consider 
increasing funding for the Program in order to address identified, but 
under-resourced, needs in the Insular Areas. In prior years, 
approximately $12 million in TAP funds has been awarded annually to the 
Insular Areas. In more recent years we have seen a modest increase in 
funding, including $13.3 million in FY 2009 and $15.3 million in FY 
2010, but the administration has reduced its requested funding for TAP 
in FY 2012 to $13.8 million, which represents a decrease of about 10% 
from FY 2010. In light of the fact that TAP requests by Insular 
governors historically far exceed appropriated amounts, I respectfully 
request that Congress at least maintain current funding for this 
essential Program.
    In addition, I would request that this Subcommittee take measures 
to ensure the funds are equitably allocated among each of the Insular 
Areas. Indeed, it would appear that, in the absence of equitable rules 
or guidelines, the Virgin Islands in prior years has been receiving 
significantly less, on a proportional basis, than our sister 
jurisdictions in the Pacific.
    More specifically, in FY 2010, approximately half (about $7.5 
million) of the total annual TAP grants was distributed to the Insular 
Areas in the form of direct grants. The Virgin Islands received about 
$1.5 million of that $7.5 million, or approximately 20 percent. 
However, in prior years the Virgin Islands received a much smaller 
share of such direct grants. For example, in FY 2008, the Virgin 
Islands received only $252,373 in direct grant funds--less than seven 
percent of the total direct grants awarded. While the direct grant 
amounts for the Virgin Islands in 2009 were higher ($901,252) than in 
2008, these amounts represented less than 14 percent of the total 
direct grants awarded.
    Moreover, OIA awarded approximately two-thirds of the total amount 
of Program funds in non-direct grants, none of which was allocated to 
the Virgin Islands.
    As these numbers demonstrate, the Virgin Islands has not received 
its fair share of Program funds in recent years. I am sensitive to the 
compelling needs of all of the Insular Areas, including those in the 
Pacific. In order to provide for more equitable distribution of the 
Program funds, however, while also protecting any Insular Area from a 
significant reduction in the amount it receives, I would respectfully 
propose that TAP funding be allocated as follows: 50 percent of the 
total amount appropriated each year should be allocated on an equal or 
proportionate (by population) basis among the Insular Areas (with a 
reallocation provision for any unused amounts), and the balance (the 
remaining 50 percent) should be allocated on a competitive needs basis 
(perhaps with statutory criteria). Not only would this allocation 
formula be more equitable, it would also provide a reasonably 
predictable stream of funding for each Insular Area and thereby 
minimize and mitigate the effect of any year-to-year changes in the 
amount of competitive grants received by each Insular Area.
    I also would like to comment on a recent OIA initiative in the 
Program that will, in conjunction with the changes discussed above, 
help lead to more equitable distribution of TAP funds. We understand 
that, in FY 2009, OIA changed the manner in which TAP grant requests 
are processed in order to encourage advance planning and more efficient 
use of Program funds. OIA now requires the Governor of each Territory 
and the President (or appointee) of each Freely Associated State 
(``FAS'') to submit a consolidated Technical Assistance request on an 
annual basis. This is intended to facilitate a comprehensive review and 
comparative analysis of all TAP project applications, while helping 
Insular Area governments to better plan, implement, and track projects 
funded through the Program. We believe that this process will promote 
greater transparency regarding the award of Technical Assistance 
grants, and more efficient monitoring and oversight of funded projects.
OIA Covenant Grant Program
    Covenant Grants provide an important source of funding for capital 
improvement projects (``CIP'') in the Territories and Freely Associated 
States. The mandatory funding for CIP Grants in the President's budget 
is $27.72 million, the same as in past fiscal years. The CIP base 
amount for each Territory and FAS is subject to adjustment (plus or 
minus up to $2 million) based upon competitive criteria that are 
intended to measure the ability of each eligible government to exercise 
prudent financial management practices and to meet Federal grant 
requirements. While laudable in intent, the criteria, as a practical 
matter, do not adequately take into account the actual, or even 
comparative, infrastructure needs of each Territory. For example, the 
Virgin Islands has been under several EPA administrative orders 
requiring the Territory to expend resources it does not have to improve 
its solid waste facilities. Further, in 2010 the United States filed on 
behalf of EPA a complaint in U.S. District Court against the Virgin 
Islands Government and other entities seeking civil penalties and 
injunctive relief which would require the Territory to expend even more 
resources it does not have to address EPA's concerns.
    We are also very concerned about the proposed recalculation of base 
amounts for FY 2012 and beyond. In a May 28, 2010 letter from Anthony 
M. Babauta, Assistant Secretary for Insular Affairs, we were notified 
that the base amount for the Virgin Islands will be reduced from the 
existing $3.36 million to $2.48 million starting in FY 2012. The 
recalculated base amounts are reportedly derived from the average of 
the previous five annual allocations. Because those five annual 
allocations resulted from the use of the overly restrictive competitive 
criteria, the Virgin Islands' recalculated base amount for FY 2012 and 
beyond is substantially understated. We believe that using a broader 
range of competitive criteria, including a needs assessment, the Virgin 
Islands' base amount would be, and should be, substantially greater 
than $2.48 million.
    Indeed, Covenant Grant funding is essential for financing the 
improvements required to comply with the EPA orders and to protect 
human health and the environment. Yet, the President's FY 2012 Budget 
proposes that the Virgin Islands receive only $2.02 million, an amount 
substantially less than even its FY 2012 base amount of $2.48 million 
and, in any event, far less than what is needed to address our pressing 
solid waste problems and comply with the EPA orders and litigation. 
Accordingly, I respectfully urge that the Subcommittee recommend to OIA 
that it expand its competitive criteria to include actual needs 
assessment and request that the Virgin Islands CIP allocation for FY 
2012 be increased to no less than our original base allocation.
OIA Water and Wastewater Program
    Total water and wastewater funding was $1.9 million in FY 2010 and 
is currently being funded under the Continuing Resolution for FY 2011 
at the same level. The Virgin Islands received, for the first time, 
$900,000 in FY 2010 funding for wastewater infrastructure improvements. 
However, the President's Budget proposes to eliminate OIA Water and 
Wastewater Program funding for the Territories.
    This funding, however, is critically needed for water and 
wastewater infrastructure in the Territories, including the Virgin 
Islands. The Territory remains under consent decree, EPA administrative 
orders, and a pending EPA complaint requiring us to increase 
expenditures to improve our wastewater and solid waste facilities. 
While my Administration has made significant progress in recent years, 
DOI water and wastewater funding is necessary to finance continued 
improvements. Accordingly, I respectfully request that, at a minimum, 
DOI water and wastewater funding in FY 2012 should be funded at levels 
no less than the current level.
Insular Energy Program
    In 1980, Congress determined in the Omnibus Territories Act, Pub. 
L. No. 96-597, that (1) the Insular Areas are virtually completely 
dependent on imported sources of energy; (2) that dependence, coupled 
with the increasing cost and uncertain availability and supply of such 
energy sources, will continue to frustrate the political, social, and 
economic development of the Insular Areas and place increasingly severe 
fiscal burdens on the Insular Area governments; (3) the Insular Areas 
``are endowed with a variety of renewable sources of energy which, if 
developed, would alleviate their dependence on imported sources of 
energy, relieve the fiscal burden on local governments imposed by the 
costs of imported fuel, and strengthen the base for political, social, 
and economic development''; and (4) appropriate technologies are 
available to develop these renewable energy resources. See P.L. 96-597, 
Sec. 604(a), 48 U.S.C. Sec. 1492(a). Congress further declared that it 
is the policy of the Federal Government to ``develop the renewable 
energy resources'' of the Virgin Islands and the other Insular Areas. 
48 U.S.C. Sec. 1492(b).
    That law further directed the Secretary of Energy to prepare and 
submit to Congress a comprehensive energy plan for the Insular Areas 
that emphasized indigenous renewable energy sources. An initial plan 
was completed in 1982, but to our knowledge the plan was never acted 
upon. Two decades later, Congress revisited Insular Area energy issues. 
In the Energy Policy Act of 2005, Congress reaffirmed its earlier 
findings on the energy needs in the Insular Areas. Further, Congress 
determined that electric power transmission and distribution lines in 
Insular Areas are inadequate to withstand damage caused by the frequent 
hurricanes or typhoons and that such infrastructure required hardening. 
Most significantly, Congress found that the 1982 plan was outdated and 
needed to be updated to reflect significant developments since 1982 in 
energy production, consumption, infrastructure requirements, reliance 
on imported energy, opportunities for energy conservation and increased 
energy efficiency, and indigenous renewable energy sources in the 
Insular Areas. In response to Congress' directive, the Secretary of the 
Interior updated the plan for each insular area in 2006. Those updated 
plans included recommendations for reducing imports of fossil fuels and 
energy costs, increasing the use of renewable energy sources and 
alternative technologies, and hardening of local power infrastructure.
    In addition, the 2005 law authorizes the Secretary of Energy to 
implement demonstration projects and other programs contained in 
recommendations in the plan. Congress also authorized appropriations 
for DOE to carry out the purposes of the law, including providing 
financial assistance grants to Insular Area governments for 
demonstration and other projects and programs totaling up to $6 million 
annually starting in FY 2006. To our knowledge, the Administration has 
never requested funding under the Insular Energy Program, nor has 
Congress specifically appropriated such funding. However, in an 
important first step, in FY 2009 Congress appropriated $475,000 in 
designated funding for a technical feasibility study for a possible 
power grid interconnection between Puerto Rico and the Virgin Islands. 
And, the Virgin Islands is an active participant, along with the U.S. 
Department of Energy, in Energy Development in Island Nations 
(``EDIN''), which is an international partnership to advance the 
deployment of renewable energy and energy efficiency technologies in 
islands across the globe. But much more needs to be done to help reduce 
our reliance on imported fossil fuels and our energy costs, which are, 
because of our small size and geographic isolation, among the highest 
in the nation. Investments now to increase the use of renewable energy 
and other alternative technologies, as well as to harden our local 
power infrastructure to better withstand hurricanes and other natural 
disasters, will in the end save the federal government money.
    Accordingly, because of the importance of clean, renewable, and 
affordable energy to the economic future, and environmental 
sustainability, of not only the Insular Areas, but the nation at large, 
I would respectfully urge this Subcommittee to work closely with the 
House Appropriations Subcommittee on Energy and Water Development to 
appropriate necessary funds under the Insular Energy Program in FY 2012 
and beyond.

                                 * * *

    Mr. Chairman, I appreciate the critical budget issues confronting 
our country. I understand that difficult choices must be made. But I 
would also like to remind you that our U.S. citizens living in the 
offshore Territories of the United States face unique challenges posed 
by our geographic isolation, our historic under development, and our 
constitutional status.
    Congress has played a critical role over the years in assisting the 
U.S. Territories develop our economies and provide opportunity for our 
people. I look forward to working with you and the other distinguished 
Members of the Subcommittee in developing effective measures to foster 
the social, economic, and institutional development of the U.S. Virgin 
Islands and other Insular Areas of the United States. I would be 
pleased to answer any questions or provide any further information on 
these important and beneficial programs.
    Thank you very much.
                                 ______
                                 
    Dr. Fleming. Well, I thank the gentleman for his questions. 
Next up is the gentlelady from Guam, Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman. I had no 
idea we were so closely connected, through Guam. And you know, 
if you look at our culture, Guam and the Northern Marianas, 
American Samoa, and all the territories there in the Pacific, 
and even Puerto Rico, you and I would almost be related. You 
have a daughter, did you say, that was born there?
    And so I would extend an invitation to you, Mr. Chairman, 
that you come out to Guam and see how we have grown over the 
years.
    Dr. Fleming. I would love to. I haven't been there since 
1981, and I am just itching to have a codel to go out there.
    Ms. Bordallo. Well, we will have to arrange that. And also, 
I want to say good morning to Governor Tulafono. We go back a 
long ways. We both served as Lieutenant Governors, you of 
American Samoa, and me of Guam.
    And there was one question I wanted to ask you, Governor. 
Eni, my good friend here, began to inquire about, you know, the 
unemployment. What is unemployment statistics right now in 
American Samoa?
    Governor Tulafono. It grew from 5 percent in 2007 to 
approximately 22 percent now.
    Ms. Bordallo. Twenty-two percent. I know we visited 
American Samoa with a codel about the time that the canneries 
were closing. And I am certainly pleased to know that now there 
is a new company that is interested in setting up their 
operation there. So I wish you well. I always think about all 
the unemployment, you know, when those canneries closed.
    So we will keep an eye. And of course, we support you in 
everything we do.
    I said yesterday at the IGI meeting that the territories 
are very closely--we work together on the Hill. Because many 
times our other colleagues just forget about us, you know. We 
are not in the mainland, and so we have to work a little bit 
harder than some of the other Members of Congress to get what 
we want.
     it is my, in my eight years in Congress, I have invited 
about, over 100 Members of Congress to visit Guam. And now they 
have a different look, you know. They realize we are U.S. 
citizens, we are out there. And as my colleagues have all said, 
it is very difficult to make a living out there; expenses are 
high. And of course my good friend here, Donna Christensen.
    And I would say, too, that we are in good position here 
health-wise. We have two doctors heading this committee. So if 
you have any problems or----
    [Laughter.]
    Ms. Bordallo. All right. Now, seriously, good morning, 
Director Bussanich. I thank the Department, first of all, for 
its request to increase the Capital Improvement Project budget 
for Guam for the Fiscal Year 2012. And as you are well aware, 
and as the Department stated in its budget justification, the 
military buildup on Guam will not be successful without 
improvements to our infrastructure.
    The CIP has assisted the Government of Guam over the past 
few years. However, will the Governor have any flexibility as 
to eligible CIP projects for Fiscal Year 2012?
    Mr. Bussanich. Yes, ma'am. I mean, certainly the Governor 
should make his needs known to the Department, and certainly 
they will be considered.
    We do have to plan out some years ahead, but the capital 
improvement process and the selection of projects has a lot to 
do with the establishment, established priorities by the local 
governments and the Governors. So that----
    Ms. Bordallo. So there will be flexibility there.
    Mr. Bussanich. Yes, ma'am.
    Ms. Bordallo. Thank you. And another question I have. I am 
concerned that project proposals for Fiscal Year 2011, water 
and wastewater funding, have yet to be received.
    Would the Government of Guam be able to leverage 
unobligated water and wastewater program funds toward loans 
from the U.S. Department of Agriculture and Agriculture's Rural 
Development Program?
    Mr. Bussanich. There is existing authorization to allow 
grants from the Department of the Interior to be used in 
conjunction with USDA programs. And I believe that also applies 
to the water and wastewater. It certainly applies to the 
capital improvement projects. So that is a distinct 
possibility.
    Ms. Bordallo. So could we then, my staff and my office, be 
able to work with you to find out if it is definite or not?
    Mr. Bussanich. Certainly. Yes, ma'am.
    Ms. Bordallo. Thank you. And Mr. Chairman, I yield back.
    Dr. Fleming. Thank you, gentlelady from Guam. Next up we 
have Mr. Duncan. Sir, you are recognized for five minutes.
    Mr. Duncan. Thank you, Mr. Chairman. And as a freshman 
member of this Subcommittee and of Congress, just learning all 
the issues with American territories. And I want to thank you 
for having this hearing.
    In just reading through some of the materials, I notice 
that the U.S. Virgin Islands recommended, in its written 
testimony, that 50 percent of the technical assistance should 
be allocated on an equal or proportionate-by-population basis 
to create reasonably predictable funding for the territories.
    Have you all delved into that? Is that in your assessment, 
as well? Or recommendation as well?
    Mr. Bussanich. Sir, I just saw that yesterday, and we 
certainly have to consider that.
    I do know that within our technical assistance program 
there are certain sort of ongoing programs that provide 
assistance to all the territories that are sort of built into 
the program. These include some of our training programs and 
certain other things.
    But an amount of money, and generally speaking, an 
equivalent amount of money is set aside from that for each of 
the islands to apply for. But it is about half of the total 
that is available for each territory.
    Mr. Duncan. Thank you for that.
    Mr. Bussanich. but in terms of 50 percent, we have not 
considered that fully. The first time we saw that was 
yesterday.
    Mr. Duncan. Just on a little different line of questioning, 
just because it is a personal interest of mine, is that, you 
know, American energy independence and security is something 
that I feel like we have to strive for. And I can only imagine 
the logistical concerns of getting available fossil fuels to 
you.
    I guess the first question is, is rising oil prices a 
concern? And then how to, just for my edification, how do you 
all deal with fossil fuel and energy sources and shortages at 
times?
    Governor Tulafono. As an island jurisdiction, fossil fuel 
is a challenge. And it is very expensive. There are no sources 
close enough to us to make it reasonable. And sometimes we also 
have issues of conflicting requirements and national law, 
because the best we can do is draw from supplies in the Far 
East. And yet we have to comply with our national laws, and it 
creates those conflicts for us.
    There is no doubt that if we can do away with it tomorrow, 
we would. But I know we cannot. And even with the advent of the 
programs for renewable energy and all those good programs, I 
don't think an island jurisdiction could ever be independent of 
fossil fuels.
    So there is going to have to be some level of usage of 
fossil fuels. So we will always be dealing with the cost of it. 
How much we can reduce with the adoption of a program, as we 
are doing now, of renewable and alternative fuels, it is going 
to be slow and painful. But I hope that for American Samoa, 
that by the year 2020, that we will achieve at least 20 percent 
to 25 percent of our energy being produced from renewables and 
alternatives.
    Mr. Duncan. Thank you, Mr. Chairman. I yield back the 
balance.
    Dr. Fleming. OK, thank you. We are right on time here, and 
we are about to close our first panel. But we have two Members 
who requested a final comment or question. So first I am going 
to recognize Mr. Faleomavaega for a comment or question.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I didn't have a 
chance to ask Mr. Bussanich, but I do want to carry, pass this 
message on to Secretary Salazar and Assistant Secretary 
Babauta.
    The State of Hawaii has had to absorb some $120 million of 
its own funds to take care of the Micronesians who are 
immigrating or migrating to the State of Hawaii: Marshallese, 
Palauans, and FSM. And I wanted to know if the Administration 
is doing anything about this problem.
    Because this wasn't something that the State of Hawaii had 
anticipated. The fact that the government-to-government 
relationship between the Compact States and the Federal 
Government, we have thousands of our Micronesian brothers and 
sisters who are homeless. And their healthcare needs and all of 
this had to be taken care of by the State of Hawaii.
    And I just wanted to pass that message on to you, Mr. 
Bussanich, and to the Department of the Interior, whether or 
not the Administration is doing anything about this. Thank you, 
Mr. Chairman.
    Dr. Fleming. And I now recognize Mr. Southerland for a 
comment or question.
    Mr. Southerland. I know earlier on, and my comment is 
directed toward the Director, and thank you. I didn't get to 
speak to you earlier, but thank you for being here today.
    You know, some of the details that we talked about as far 
as employment and the technical assistance programs, one thing 
that would be very helpful--and I would ask if your office 
could perhaps provide for me--is some quantifiable data, you 
know, in order to evaluate the programs that are currently 
there. I believe if you don't evaluate, you can't elevate. And 
I think that just in a desire to do that, to get a handle on 
the unemployment numbers, the business opportunities that 
currently exist, that need to exist, and then how proper 
programs are put in place to maximize the dollar, as well as 
maximize the potential future of people that want to take 
advantage of these programs.
    So I would just ask if that is something that could be 
provided for us going forward. That would be helpful.
    Mr. Bussanich. We will certainly do what we can do, sir.
    Mr. Southerland. Thank you very much. Thank you, Mr. Chair.
    Dr. Fleming. And we are now out of time for panel one. I 
want to thank our witnesses for very thoughtful statements and 
responses.
    Members of the Subcommittee may have additional questions 
for the witnesses. And we ask you to respond to these in 
writing. The hearing record will be open for 10 days to receive 
these responses.
    And with that, I thank you. And we will ask panel two to 
step up.
    [Pause.]
    Dr. Fleming. Well, I want to thank our second panel, which 
consists of one witness, for coming forward. I would now like 
to welcome the Acting Director of the U.S. Fish and Wildlife 
Service, Dr. Rowan Gould, who has had a distinguished 35-year 
career in the Service.
    Among the highlights of his career, Dr. Gould was the 
coordinator of the Service's response to the Exxon Valdez oil 
spill in 1989, and more recently the Deepwater Horizon accident 
in the Gulf of Mexico.
    Dr. Gould, you are reminded that your complete written 
testimony will appear in the hearing record, and you have five 
minutes to summarize it. And before I recognize you, Mr. Gould, 
I want to recognize another Member, Mr. Runyan from New Jersey. 
And welcome today, sir, and we look forward to your questions.
    Mr. Gould, you have five minutes. And we are very anxious 
to hear from you today.

   STATEMENT OF ROWAN GOULD, ACTING DIRECTOR, U.S. FISH AND 
   WILDLIFE SERVICE, UNITED STATES DEPARTMENT OF THE INTERIOR

    Mr. Gould. Good morning, Chairman Fleming and members of 
the Subcommittee. I am Rowan Gould, Acting Director of the U.S. 
Fish and Wildlife Service, and I appreciate the opportunity to 
testify before you today on the Service's Fiscal Year 2012 
budget request.
    I would also like to thank the Subcommittee for its 
continued support of our mission to conserve, protect, and 
enhance fish, wildlife, and plants and their habitats, for the 
continuing benefit of the American people.
    The total request for the U.S. Fish and Wildlife Service 
for Fiscal Year 2012 is $1.7 billion, a net increase of $47.9 
million when compared to Fiscal Year 2010 enacted budget.
    During these difficult budget times, the Service's budget 
reflects the priority that this Administration places on 
conservation, and acknowledges that for every Federal dollar 
spent, the Service supports job creation and economic 
development at the local level.
    According to our 2006 Banking on Nature report, 
recreational activities on national wildlife refuges generated 
$1.7 billion in total economic activity. According to the 
study, nearly 35 million people visited national wildlife 
refuges, supporting almost 27,000 private sector jobs, and 
producing about $543 million in employment income.
    In addition, recreational spending on refuges generated 
nearly $185.3 billion in tax revenue at the local, county, 
state, and Federal level.
    In addition, 2010 Service economists published a peer-
reviewed report of the economic contribution of the Fisheries 
Program, that attributed $3.6 billion per year to the economy 
from aquatic habitat conservation subsistence fisheries, 
invasive species management, and most importantly, public use.
    The total number of jobs associated with this economic 
output is over 68,000 jobs. The Federal investment in the 
Service supports economic development and job creation 
throughout the United States.
    The Fiscal Year 2012 budget request focuses on the agency's 
highest-priority conservation initiatives, while containing 
costs through management efficiencies and other savings. The 
budget proposes an increase for the North American Wetlands 
Conservation Act of $50 million, as well as an increase of $4 
million for activities supporting renewable energy development, 
including $2 million for the Endangered Species Consultation 
Program and $2 million for conservation planning assistance.
    The budget will also support large-scale ecosystem 
restoration projects, such as Chesapeake Bay, as examples of 
the Service's commitment to a science-driven partner-engaged 
approach to conservation.
    The Service has requested $140 million from the Land and 
Water Conservation Fund for Service-identified Federal land 
acquisitions; $15.7 million to provide support for Youth in the 
Great Outdoors, an initiative to demonstrate the importance of 
fish and wildlife conservation and encourage careers in the 
natural sciences.
    Recognizing the need to make difficult choices during 
challenging economic times, the Service is participating in an 
aggressive, Department-wide effort to curb non-essential 
administrative spending. In accordance with this initiative, 
the Service's Fiscal Year 2012 budget assumes $26.5 million in 
savings. Savings will be realized in several areas, including 
travel, employee relocation costs, and supplies.
    In 2009, the Service received $280 million for construction 
and resource management after the President signed the American 
Recovery and Reinvestment Act of February 17, 2009. In the 
months leading up to the bill's passage the Service worked with 
the Office of Management and Budget and Congress to identify 
potential construction, maintenance, and restoration projects 
that could be started quickly in an effort to help create jobs 
and stimulate the economy.
    The funds received by the Service supported 713 projects. 
Of this funding, $115 million was for construction projects, 
and $165 million was for resource management projects. By the 
end of Fiscal Year 2010, all Service funds were obligated and 
projects mobilized, resulting in 1,072 contracts awarded and 
371 grants or cooperative agreements. In total, Service 
recovery funding led to the creation or retention of 4,020 
jobs.
    Thank you for the opportunity to testify this morning. I am 
happy to answer any questions the Subcommittee may have, and 
look forward to working with you through the appropriations 
process.
    [The prepared statement of Mr. Gould follows:]

       Statement of The Honorable Rowan Gould, Acting Director, 
    U.S. Fish and Wildlife Service, U.S. Department of the Interior

    Good morning Chairman Fleming, and Members of the Subcommittee. I 
am Rowan Gould, Acting Director of the U.S. Fish and Wildlife Service 
(Service). I appreciate the opportunity to testify before you today on 
the Service's Fiscal Year 2012 budget request. I would also like to 
thank the Subcommittee for its continued support of our mission to 
conserve, protect, and enhance fish, wildlife, and plants and their 
habitats for the continuing benefit of the American people.
    The President's FY 2012 budget request of $1.7 billion for the 
Service will focus funding on the agency's highest priority 
conservation initiatives, such as the America's Great Outdoors 
initiative, while containing costs through management efficiencies and 
other savings. The requested $1.7 billion is a net increase of $47.9 
million compared to the FY 2010 enacted budget. The budget also 
includes approximately $1 billion available under permanent 
appropriations, most of which will be provided directly to States for 
fish and wildlife restoration and conservation.
    The budget principally focuses on large-scale, conservation efforts 
by supporting the President's America's Great Outdoors initiative. 
Additionally, an increase in Cooperative Landscape Conservation will 
enable the Service to continue working with partners to conduct 
collaborative landscape-scale biological planning and information 
gathering by completing a national network of Landscape Conservation 
Cooperatives (LCCs) initiated in FY 2010.
    The President's America's Great Outdoors initiative provides the 
Service with $140 million from the Land and Water Conservation Fund for 
Federal land acquisitions the Service has identified as having the 
greatest conservation benefits, and $15.7 million, an increase of $2.5 
million to support Youth in the Great Outdoors by providing a platform 
and programs to orient children and young adults to the importance of 
fish and wildlife conservation and encourage careers in natural 
science.
    The budget proposes an increase of $4 million for activities 
associated with renewable energy development, including $2.0 million 
for the Endangered Species Consultation program to support development 
of renewable energy projects and $2.0 million for Conservation Planning 
Assistance (CPA). The increase for the CPA program will enable the 
Service to participate more fully in priority landscape level planning 
to assist industry and State fish and wildlife agencies' siting of 
renewable energy projects and transmission corridor infrastructure, 
aiding in the President's mission for increased renewable energy 
development.
    The budget will also support large-scale ecosystem restoration 
projects as examples of the Service's commitment to a landscape-scale, 
science-driven, partner-engaged approach to conservation. Some of these 
projects include efforts in the Chesapeake Bay watershed and the 
California Bay-Delta region, where water supply, healthy watershed and 
sustainable populations of fish and wildlife are being addressed.
    The Service recognizes the need to make difficult choices during 
challenging economic times. In support of the President's commitment to 
fiscal discipline and spending restraint, the Service is participating 
in an aggressive Department-wide effort to curb non-essential 
administrative spending. In accordance with this initiative, the 
Service's FY 2012 budget assumes $26.5 million in savings, built upon 
management efficiencies the Service began implementing in FY 2011. 
Savings will be realized in several areas, including travel, employee 
relocation, and supplies.
Cooperative Landscape Conservation
    The requested funding increase of $10.2 million will enable the 
Service to continue working with partners to conduct collaborative 
landscape-scale biological planning and information gathering by 
completing the network of Landscape Conservation Cooperatives initiated 
in FY 2010.
    LCCs will continue to act as a focal point for collaborative work 
with partners to disseminate applied science products and tools for 
resource management decisions across landscapes. This collaboration 
provides partners the scientific information to target resources on 
activities that will produce the greatest benefits for fish and 
wildlife for the American people. Within the Service, LCCs help support 
and augment many ongoing programs, including Endangered Species 
Recovery Plans, Refuge Comprehensive Conservation Plans, fish passage 
programs and habitat restoration.
Adaptive Science
    With an additional $7.2 million in funding, the Service will be 
able to acquire the necessary science to make better conservation 
decisions. The funding will be used to acquire risk and vulnerability 
assessments, conduct inventory and monitoring, develop population and 
habitat assessments and models, design conservation measures, evaluate 
management options for LCC partners, and increase our understanding of 
conservation genetics.
National Wildlife Refuge System
    Funding for the operation and maintenance of the national wildlife 
refuge system is requested at $502.9 million. The request includes an 
increase of $6.5 million, for National Wildlife Refuges (Refuges) 
operations, enabling Refuges to complete additional habitat improvement 
projects. An additional $2.0 million will be used for the Service's 
youth program to engage young Americans in conservation by offering 
public service opportunities, science-based education, and outdoor 
learning laboratories. The request includes an increase of $1.5 million 
for Chesapeake Bay restoration and $750,000 for Gulf Coast restoration 
activities at Refuges. With 10 National Wildlife Refuges along the Gulf 
coast line, protecting more than 300,000 acres, the Service is 
committed to working towards repairing the damage caused by the 
unprecedented Deepwater Horizon explosion and oil spill. Additionally, 
an increase of $2.0 million is also requested for deferred maintenance 
at Refuges.
    In support of LCC development and adaptive science management, the 
requested increase of $8.0 million within the Refuge program will be 
used to continue building the landscape scale, long-term inventory and 
monitoring network the Service began in FY 2010.
National Wildlife Refuge Fund
    The Service proposes the elimination of the entire appropriated 
portion ($14.5 million) of the National Wildlife Refuge Fund. The Fund 
was originally conceived to assist communities in lieu of taxes for 
lands acquired and managed by the Service. Over time, Refuges have been 
found to generate tax revenue for communities far in excess of tax 
losses from Federal land ownership. Refuge lands provide many public 
services, such as watershed protection, and place few demands on local 
infrastructure when compared to development that is more intensive. 
Importantly, Refuges bring a multitude of visitors to nearby 
communities, providing substantial economic benefits. Recreational 
spending on Refuges generates millions of dollars in tax revenue at the 
local, county, State and Federal levels. The mandatory receipts 
collected and allocated to States under the program would remain.
Law Enforcement
    The Service budget request provides $62.6 million for the law 
enforcement program to investigate wildlife crimes and enforce the laws 
that govern the Nation's wildlife trade. The request is $3.1 million 
below the 2010 enacted level, which reflects the elimination of funding 
for a new class of agents who were hired in 2010.
Endangered Species
    The FY 2012 budget includes $182.7 million to administer the 
Endangered Species Act (ESA), a net increase of $3.3 million over the 
2010 enacted level. This includes a $2.0 million increase for renewable 
energy consultation and $3.4 million for ecosystem-specific 
consultation and recovery.
    The Service also is requesting an increase in funding for the 
Endangered Species Listing Program, to reflect the increasingly large 
number of ESA petitions being received. Between 1994 and 2006, the 
Service received an average of 17 petitions annually, covering an 
average of 20 species per year. In contrast, since 2007, the Service 
has been petitioned to add more than 1,230 species to the list of 
threatened and endangered species, more species than the Service listed 
during the previous 30 years of administering the Act. With additional 
funding, the Service projects to complete 39 additional 90-day and 12-
month petition findings, while also initiating proposed listing 
determinations for 93 species.
Fisheries and Aquatic Resource Conservation
    The budget request includes a total of $136.0 million for the 
Fisheries and Aquatic Resource Conservation program, a decrease of 
$12.2 million from the 2010 enacted level. Facilitating the Service's 
role and responsibility in promoting ecosystem health, fisheries, and 
aquatic resource conservation, the budget includes increases for the 
Chesapeake Bay and California Bay-Delta program as well as an 
additional $2.9 million for Asian carp activities in the Great Lakes. 
Moreover, the budget proposes an increase of $380,000 to protect polar 
bears in compliance with the Marine Mammal Protection Act.
National Fish Hatchery Operations--Mitigation
    The FY 2012 request contains a reduction of funding for National 
Fish Hatchery general program activities of nearly $6.8 million. At 
several of its hatcheries, the Service produces fish to mitigate the 
adverse effects of Federal water development projects constructed by 
other Federal agencies. States depend on these activities to stock 
fisheries which provide economic benefit to local communities. At the 
direction of Congress, the Service is working to recover costs from the 
Federal agencies that built and operate these water infrastructure 
projects. The U.S. Army Corps of Engineers (Corps), is the largest 
customer for these mitigation fish, and it has $3.8 million in its 2012 
request to fund mitigation fish production. The Service will continue 
ongoing discussions with the Corps as well as the Tennessee Valley 
Authority, Central Utah Project Completion Act, and the Bonneville 
Power Administration to seek reimbursement and negotiate reimbursable 
agreements for the operation of mitigation fish hatcheries.
Migratory Birds
    The Migratory Birds program is funded at $54.4 million, just 
slightly below FY 2010 enacted level. The North American Wetlands 
Conservation Fund is funded at $50 million, $2.4 million over the FY 
2010 enacted level. The North American Wetlands Conservation grant 
program plays a vital role addressing wetland habitat loss, with every 
grant dollar matched 1:1, and in some programs as much as 4:1.
International Affairs
    The budget request provides the International Affairs program with 
just under $13.0 million, a net decrease of $1.4 million from the 2010 
enacted level. The Multinational Species Conservation Fund is funded at 
$9.8 million, a decrease of $1.8 million.
Coastal Impact Assistance Program
    Under the Energy Policy Act of 2005, the Secretary of the Interior 
is authorized to distribute $250 million for each of the fiscal years 
2007 through 2010 to states and their coastal political subdivisions 
(CPS) with oil production in the OCS off their shores. This money is 
available to Alabama, Alaska, California, Louisiana, Mississippi, and 
Texas by formula for ecosystem restoration projects.
    This program has been implemented from its inception by the Bureau 
of Ocean Energy Management, Regulation and Enforcement (BOEMRE), 
formally the Minerals Management Service (MMS). However, in FY 2012, 
the Coastal Impact Assistance Program will be transferred to the 
Service as the purpose of the CIAP aligns more directly with the 
mission of the Service. The two bureaus are working together to 
implement the transfer as quickly and smoothly as possible. The 
transfer will allow BOEMRE to focus on programs more directly aligned 
with its regulatory and enforcement mission.
Recovery Act Funds
    The President signed the American Recovery and Reinvestment Act 
(Recovery Act) on February 17, 2009. Of the $280 million the Service 
received in Recovery Act funding for 839 projects, $115 million was for 
construction projects and $165 million was for resource management 
projects. The Service awarded 1,072 contracts and 371 grants or 
cooperative agreements that led to the creation or retention of 4,020 
jobs, according to award recipient reports as of December 31, 2010.
    Thank you for the opportunity to testify this morning. I am happy 
to answer any questions the Subcommittee may have and look forward to 
working with you through the appropriations process.
                                 ______
                                 
    Dr. Fleming. Thank you, Mr. Gould, for your opening 
comments. Now I would like to recognize myself for five minutes 
for questioning.
    Let us look at the budget. For Fiscal Year 2008, the land 
acquisition budget for your agency was $35 million. The budget 
that President Obama just proposed, and is before our 
Subcommittee today, is $140 million, or a 300 percent increase. 
Let me repeat that. You are here today asking for a 300 percent 
increase in a budget, when of course we are doing nothing if we 
are not cutting the budget, as you well understand.
    Land acquisition budget compared to what we spent in 2008. 
This, mind you, is on top of the $280 million the Service 
received from the 2009 Stimulus Act, as well.
    Together with this year's current expenditure of $86.3 
million, the Obama Administration will have spent, in just two 
years, more than in the last five years of the previous 
administration.
    While I favor appropriate land conservation and habitat 
protection, I am not sure how any agency can propose such a 
budget increase in the light of our nation's huge deficits. But 
you have been invited here to do just that. So I want to start 
off by having you explain to the American public why a $105 
million increase--that is, 300 percent--is needed for this 
program.
    Mr. Gould. Well, first of all, I would like to point out 
that that increase that we are asking in land acquisition isn't 
just the titled land acquisition. A significant portion of that 
land acquisition funding is in easements for conservation.
    The Service has, in the last few years, recognized the 
importance of working with working landowners, large plots of 
land, in cattle ranching and other such agricultural 
activities, the importance of them staying on the land, and 
them being a vital part of the land program of the Fish and 
Wildlife Service.
    There is only one new refuge, new acquisition, in the 
proposed land acquisition budget for this fiscal year, and that 
is for the Flint Hills. In that case, there is literally no 
money there for fee acquisition; it is all for conservation 
easements. And there is a lot of money there. I don't know the 
exact amount, but that is the place where the Farm Bureau, the 
local landowners, the ranching community has come together and 
recognized the importance of the Tall Grass Prairie for 
conservation and their livelihood. And we are working together 
to create a conservation unit that will do both great things 
for ducks and wildlife and other kinds of critters, at the same 
time recognizing the importance of the working landscape and 
the importance of family farms and large ranches to the culture 
and economy of this country.
    Dr. Fleming. OK. Well, I thank you for that. But you know, 
your predecessor always indicated to me that it was better to 
maintain what you have before you go purchasing others.
    This budget calls for an acquisition of 70,000 new acres 
for inclusion within the system. Now, why is this acquisition 
and new construction a priority over maintenance and upkeep, 
which is, we have really gotten behind?
    Mr. Gould. While we appreciate all the work we need to do 
for maintenance and upkeep, the ARA funds did us a favor in 
taking a good whack out of our list. In terms of the 
acquisition, we are talking about specific acquisitions. You 
will find that those acquisitions are all acquisitions within 
an existing refuge boundary.
    And we have found that in working with willing sellers, and 
when we can put lands within the existing refuge boundaries, we 
actually save money in terms of maintenance and oversight and 
public access, and all of the good things that come from 
running a national wildlife refuge, if we have a contiguous 
block of land.
    Dr. Fleming. Well, let me follow up. During a briefing last 
month, a representative of the Department of the Interior 
candidly responded that one of the motivations for increasing 
the request for land acquisition was the fact that land values 
in this country have plummeted in the last three years. Isn't 
this an example of big government exploiting the private sector 
once again?
    Mr. Gould. I would submit that with the emphasis on 
easements, and actually letting the land managers out there 
actually be--the refugee managers could be those ranchers. They 
could be very good refuge managers.
    And what they need to be is paid for conserving their 
lands, for multiple benefits, including conservation, fish and 
wildlife conservation. And we value the fact that those land 
managers, those private-citizen refuge managers, are going to 
be paid for what they are doing. And at the same time, it 
codifies economically their way of life, keeps their land 
intact, keeps it in the family. There is all kinds of economic 
benefit that----
    Dr. Fleming. Let me interrupt you. I apologize, because I 
am running out of time. But why do we have to pay them? Why do 
taxpayers, in times of a $14 trillion--going on $15 trillion--
debt, why do we have to pay them to do the right thing?
    Mr. Gould. We need to pay them for doing the right thing 
because they are locking out potential other uses of their 
land, given other economic opportunities in the future, which 
we can't foresee. But we do know right now that the American 
public values the fish and wildlife of this country, both 
economically, culturally, for the future generations; values 
that important aspect of the American psyche. And they are 
giving up their rights to make a change, with an easement 
payment, and it accomplishes all kinds of good things.
    Dr. Fleming. Well, I thank you for that. I would just end 
my five minutes, going over, to say that those are all great 
platitudes. But again, in our fiscal situation, it really 
doesn't, the priorities really don't make it, as far as I am 
concerned.
    With that, I want to recognize the Ranking Member. Dr. 
Christensen, you have five minutes.
    Dr. Christensen. Thank you, Mr. Chairman. And thank you, 
Mr. Gould. And I want to compliment the Service for the $26.5 
million in savings. It is a good amount of savings, and we 
really appreciate your addressing the fiscal crisis by trying 
to rein in your costs.
    I have a question specifically related to my district, to 
begin with. In the Caribbean we are facing a severe lionfish 
invasion. They are causing harm to our native fish, our coral 
reef ecosystems, which support important components of our 
coastal economy, including jobs, fishing, and tourism.
    And while I realize we can't eliminate these lionfish 
entirely, we have to keep them, their levels as low as we can.
    So Dr. Gould, can the funds from the Pittman-Robertson or 
Dingell-Johnson Programs be used to educate my constituents 
about this invasion, and be used to capture and remove these 
invaders? You know, our divers, our fishing community, our 
boaters are doing what they can. But if we cannot use those 
funds--well, I hope we can. But if not, what other sources of 
funding would be available?
    Mr. Gould. We recognize lionfish are a significant problem, 
an invasive species that are a problem not only in your area, 
but in the Gulf. They are spreading everywhere.
    Dr. Christensen. From North Carolina down.
    Mr. Gould. We can't really focus any efforts on making them 
injurious species, because all that does is regulates the 
transport of these species. And quite frankly, they are already 
there, so we really can't spend money to do that sort of thing.
    However, the concept of using Pittman-Robertson and 
Dingell-Johnson money, I would have to check into it, but it 
seems like a reasonable approach that is driven by a state or 
territory, depending on their specific needs. And the whole 
system is designed to recognize that each area has specific 
both responsibilities and prerogatives.
    So I will work with you in the future, and work with our 
Wildlife Sports Fish Restoration Program. And I am fairly sure 
you can use the money for that sort of thing, but we will check 
on it.
    Dr. Christensen. Well, thank you, and we will be in contact 
with your office on that.
    H.R. 1, the Continuing Resolution that passed the House 
February 19, zeroed funding for the State and Tribal Wildlife 
Grants Program. So Dr. Gould, what impact, could you tell us 
what impact this will have on the Service's ability to help 
states and tribes implement their wildlife action plans, which 
really go to preventing our nation's wildlife from becoming 
endangered and having to be put on the endangered species list?
    Mr. Gould. As you have indicated, the goal of state 
wildlife SWIG money, state wildlife grant money, is to 
implement a plan that will keep species from going onto the 
endangered species list.
    Dr. Christensen. Right.
    Mr. Gould. And it is done in such a way in solid 
partnership with the Fish and Wildlife Service.
    Our relationship with the states and the territories has 
got to be strong if we are, as a group, conservation regulators 
and managers, is going to be effective. It is literally going 
to cut down the non-game programs of all states and 
territories, because that is where they are getting the money 
from.
    Now, they are in a world of economic hurt right now. 
Obviously, they don't want to lose that support, and we don't 
want to lose the strong partnership.
    Dr. Christensen. Well, thank you. The states are in a world 
of hurt, as are the territories, and we need the support for 
this program.
    Another question about the National Wildlife Refuge System. 
I was really impressed with the amount of funds, revenue that 
it generates. They are really economic engines in local 
communities, returning an average of four dollars in economic 
activity for every one dollar appropriated by Congress.
    So can you describe for us the ramification on jobs and 
visitor services, on hunting programs and the refuge system 
inventory and monitoring program, if the funding for the refuge 
system reverted to 2008 levels?
    Mr. Gould. There would be a significant reduction in 
outdoor-related both consumptive and non-consumptive use of 
resources. It would really revolve around a reduction in the 
ability to provide access for folks.
    The Refuge System is an incredible economic generator. And 
in fact, as you indicated, the amount of money resulting from 
their operations dwarfs the amount of money going into 
operating them.
    And so I can't give you an exact amount of reduction, but I 
can tell you it would be significant.
    Dr. Christensen. And it would hurt the states.
    Mr. Gould. Oh, it would hurt----
    Dr. Christensen. And the local areas.
    Mr. Gould.--the local economies, mostly.
    Dr. Christensen. Thank you.
    Dr. Fleming. Well, time is up for that question. Next we 
have Mr. Southerland from Florida.
    Mr. Southerland. Thank you very much for being here. I 
wanted to follow up on some of the stimulus spending money from 
2009.
    How many of the 713 projects that were ultimately approved 
by the Office of Management and Budget were shovel-ready in 
2009?
    Mr. Gould. I don't have that specific number for you, 
Congressman, but I will work with you to get that information 
to you as soon as I can.
    Mr. Southerland. Do we know the status of the projects that 
were, that those funds were designed for? I mean, do we know if 
the taxpayers can be satisfied that their hardworking dollars 
have been spent being maximized?
    Mr. Gould. Yes. We have continual IG oversight of what we 
are doing in terms of implementation, and in terms of 
documentation of our progress on those ARA projects. So far, 
Fish and Wildlife Service has been held up as an example of how 
to do it right, both in contracting efficiency and the ability 
to get the money obligated quickly, and get the jobs and 
activities on the ground. And we are very proud of that.
    Mr. Southerland. I mean, are these projects, do you have 
any projects that have been completed? Totally done?
    Mr. Gould. Yes. And we, in fact, we are rolling out several 
projects as they--very large projects. Visitor centers, some 
progress on maintenance projects. We have several restoration 
projects that are completed. In fact, it is a favorite activity 
of mine to go out and cut ribbons, and demonstrate to folks 
that we can get the job done.
    Fish and Wildlife Service is very proud of our, as I 
indicated, very proud of our progress and our performance in 
spending that money efficiently.
    Mr. Southerland. One of the things that I found interesting 
in your comments earlier, I know the Chairman made some 
comments about paying landowners to do the right thing with 
their properties.
    I mean, I appreciate that, but that sounds a little 
ludicrous, to be just very blunt with you. For someone to pay 
me to do what they want me to do with property that I pay for, 
property taxes that I pay for, and also--I mean, I think it is 
sad that we have gotten to the point that the government feels 
that it is its responsibility to inject its opinion on what I 
should do with the property that I own, that I pay for, and 
that I want to use not just in my lifetime, but if I want to 
perpetuate that to my children.
    You take great pride, it seems like, in being able to do 
that very thing that I think that is a key problem to the 
swelling budget. Because I look at the dollars, you talk about 
the easements. I mean, we are broke. And I mean really broke. 
And the American people and our small businesses that we 
operate, we can't spend more money than we have.
    And for me to--and I can't just raise my prices. I can't go 
out there and find dollars that I don't have. And I find that 
it is bothersome, quite honestly, that the budget has swelled 
some 300 percent, as the Chairman so duly noted.
    That kind of action is not available to the American 
people. And I just, I am amazed that you would ask for such 
monies, when there is such pain out there in this country. I am 
astonished, really.
    Mr. Gould. And I understand your point of view. But I also 
understand----
    Mr. Southerland. No, no, that is reality, OK. It is not a 
point of view. It is a reality that we are broke.
    And so for the Department to ask for an increase of such 
cataclysmic numbers, that does not apply to small businesses 
around this country, which represent 85 percent of our economy. 
And 40 percent of the unemployed have come from small business.
    I don't understand the rationale. And if that is how we go 
about handling and getting fiscal responsibility implemented 
into the Department, you are going in the opposite direction of 
what the American family budget is going. Do you see that?
    Mr. Gould. I understand what you are saying. But also 
remember that that money results in a multi-fold economic 
benefit to the American public, in terms of hunting, fishing, 
bird-watching, the existence of that land out there that is 
part of your states.
    Mr. Southerland. But I appreciate that, and I live in 
Panama City, Florida.
    Mr. Gould. So it is an economic driver.
    Mr. Southerland. We can fish two months a year now to catch 
the two fish, and we have five-dollar gas at the pump, OK, at 
the marina. So, I mean, there is a movement to turn the Gulf of 
Mexico into an aquarium, sir.
    And so if you want me to thank you for the economic 
benefit, OK, of running our family business and working 70, 80 
hours a week, and having that one Saturday a month that I could 
go offshore, paying $600 to put gas in my boat, to pay the 
fees, to go offshore, only to catch the two fish that people in 
lab coats say that I can catch, I am not going to thank you for 
that. I am not going to feel that I should be appreciative of 
that.
    What I don't appreciate is asking for this unbelievable 
amount of money at a time when the American families are 
hurting so much. It is just bothersome. And Mr. Chairman, I 
apologize.
    Dr. Fleming. Thank you. And next recognized is Mr. Sablan.
    Mr. Sablan. Thank you, Mr. Chairman. Mr. Gould, thank you 
for being here. I support many of the programs of Fish and 
Wildlife. I come from the Northern Mariana Islands, island 
units that are surrounded by water.
    But I have also some issues with--and I actually, short of 
joining the other side of the dais, let me give you an example.
    On the island of Rota, 32 square miles, a growing 
population obviously, people, some people cannot build homes. 
Not businesses, homes. Because of the restrictions imposed by 
Fish and Wildlife regulations.
    At the same time, I also am conscious, and I appreciate 
that we need to strike a balance here between preserving what 
we have, the small--but regulations that were meant for large 
land areas in the United States are hindering people from 
building homes for their families.
    And so some of these people remain living with their 
parents. And so you have two families in a home, or three 
families. And we live with that, because we are extended 
family.
    I would like to work with your office and find a way to 
resolve some of this, or maybe start planning to resolve some 
of this, short of striking out an entire regulation.
    Another thing, and let me ask this. Last year, I mean in 
2009, and despite the strong opposition of my good former 
Chairman, Mrs. Bordallo, and Governor Bush went ahead and 
declared the Mariana Trench Marine Monument. The size of that 
monument is the equivalent of the State of Arizona. And no, not 
one penny was paid for it, despite the three island units and 
some volcanic units. Not one penny was paid for it in the 
establishment of this marine monument reserve.
    But there were promises made. There were promises made. And 
I am concerned that there is no thought, in Fiscal Year 2012 
budget proposal, to support the Mariana Trench Marine National 
Monument.
    At the same time, NOAA just solicited proposals for the 
preparation of management plans to address, among several 
things, the examination of the creation of outreach and 
educational films to develop the monument.
    Is your office or your agency, does it intend to support 
the monument? Is it anywhere in the radar in the next decade? 
And are you working with NOAA on----
    Mr. Gould. Yes, Congressman, we are collectively working 
out the details of each of us individually putting out notice 
of intent to start the management planning process for it. And 
based on the information I have right now, we should have that 
notice of intent out and start the process very shortly. We 
should, in fact, in the matter of the next few weeks we should 
have, we should start the management process.
    I want to point out that for the Remote Islands Unit, there 
is significant funding in our base funding, which we want to 
continue to use. I was just looking at, if it is $1.485 
million, $1,485,000, for working out there in a very remote and 
a very large area, as you indicate. But we need to get an 
advisory panel in place, which we are making progress on; and 
we have to start our planning process, which we are going to 
start, I promise you, very, very shortly.
    Mr. Sablan. Thank you. But could we also, your office and 
my office, work together on trying to look into these 
regulations?
    Mr. Gould. Absolutely.
    Mr. Sablan. That actually prohibits people from building 
homes, not businesses, now; homes on their property because of 
regulations. Again----
    Mr. Gould. We are very willing to sit down and work with 
you on that.
    Mr. Sablan. We heard Mr. Southerland on this issue, that 
sometimes the regulations are--but then again, I appreciate 
that the regulations also provide some protection for the areas 
around the Northern Mariana Islands. Thank you very much, Mr. 
Chairman.
    Dr. Fleming. I thank the gentleman from the Marianas. Next 
we are going to recognize Mr. Duncan from South Carolina.
    Mr. Duncan. Thank you, Mr. Chairman. And thank you, Mr. 
Gould, for being here today.
    Let me just preface my comments by saying a couple of 
things. I asked to be on this Subcommittee because I am an avid 
outdoorsman, and I don't think you are going to find a Member 
of Congress that spends more days afield enjoying hunting and 
fishing, whether it is offshore or whether it is shooting 
waterfowl.
    And during the course of my adult life I have had the 
opportunity to visit a number of national wildlife refuges, 
whether it is down at the bayou meet in Arkansas or the 
Congaree Swamp in the Santee National Wildlife Refuge in my 
home State of South Carolina. I understand your mission. And I 
have been the benefactor of higher waterfowl numbers, OK.
    So having prefaced that, Mr. Chairman, I want to thank you 
for, in your opening statement, where you point out the 
extraordinary times that we are living in today, with the 
amount of national debt. And we can rehash the numbers, $14 
trillion in national debt; we are spending a trillion and a 
half more than we are bringing in. Steve Southerland was right: 
We are broke in this country, and we have to make some hard 
decisions about what we spend money on.
    And so it saddens me when I see the President's request is 
145 percent higher than when he took office, and I see where 
some of the money has been spent to purchase land. And I think 
about, as a small business owner and owning rental property, 
when times are good, you can go out and acquire more property. 
But when times are tough, and it is taking everything that your 
rental property is bringing in just to maintain that property, 
you don't go out and purchase more. Because you don't have the 
maintenance budget to continue maintaining what you have got, 
much less the additional property.
    And so when I see that you all have not only, let us see if 
I can find the data, but Fish and Wildlife Service built 15 new 
headquarters and visitor centers with the stimulus money? It is 
hard for me to justify that.
    You indicate in your statement that you guys had to make 
tough choices. That doesn't look like tough choices to me; that 
looks like wish-list desires, when you build new offices in 
tough economic times. When money is good, I understand the need 
to do that. But the times are tough.
    So the question I have for you is when you talk about 
making tough choices, and you indicate that the cut in law 
enforcement was one of the tough choices; and I review your 
budget, and it is clear that tough choices are also made, 
refuge operations, maintenance, construction, fisheries, 
National Wildlife Refuge Fund, et cetera. Couldn't the Service 
have avoided these tough choices by requesting more realistic 
amounts or being a little more frugal with your spending?
    And I am going to let you answer that question in just a 
second. But Mr. Chairman, we had a hearing yesterday on BLM, on 
what I perceive as a land grab in the Western States. And I see 
this as falling in a similar pattern, of acquiring land at a 
time when we don't have a lot of money to do that with.
    So the question is, back to the tough choices that you said 
you made when you built 15 new offices, and you continue to 
acquire more land, but yet you are going to cut law enforcement 
officers. Rationalize that decision for me, please.
    Mr. Gould. Well, first of all, we are not cutting law 
enforcement officers; we are maintaining the number we have. 
The actual reduction in law enforcement budget was an add-on in 
2010 to fund a new class to go through. We now have those 
people through. We do have the money to support those people, 
and we will continue to fund the high-priority law enforcement 
actions that are important to this country.
    In terms of the land acquisition, as opposed to that hard 
decision. Again, all I can say is we are trying to focus on 
easements, willing sellers. Whether you believe in the concept 
of a conservation easement or not, in land acquisition itself, 
it actually saves us operating money by buying land within the 
existing boundaries of a refuge.
    Mr. Duncan. He was just sharing with me the ARA new visitor 
centers, and $91 billion.
    Mr. Gould. Ninety-one million, yes.
    Mr. Duncan. That is a large number. I am just going to 
yield back my time, because I am afraid I will get as 
passionate as Mr. Southerland. Thank you.
    Dr. Fleming. I thank the gentleman and the witness. Next I 
would like to recognize Mr. Faleomavaega for five minutes, sir.
    Mr. Faleomavaega. Thank you, Mr. Chairman. And I want to 
thank Mr. Gould for his testimony this morning.
    I don't think there is anyone here, Members of Congress, 
who are more conscious of the fact that we do have a very 
serious deficit problem in our national debt, and the situation 
where I am sure not only the Administration, but both Houses of 
the Congress, are very conscious of this reality and this fact.
    I want to ask Mr. Gould, when was the National Fish and 
Wildlife Service, when did it start? How many years have we had 
this service?
    Mr. Gould. We started back in 1872. And we actually started 
as the Fishery Service, and evolved over time into a much 
broader program.
    Mr. Faleomavaega. Now, I notice that our current budget 
proposal now for the Service, for continuing the service that 
was enacted by law by the Congress in the 1800s, and you now 
have a budget of $1.7 billion. Can you help me if we could 
translate this in some kind of a leveraging? That we are going 
to expend $1.7 billion to establish what? What benefit are we 
going to get? Or disincentives, I suppose, in terms of what 
some of my colleagues on the other side have argued I am sure 
for waste and corruption and fraud and all of this. We all are 
very much aware of this.
    But I want to ask you, Mr. Gould, we are going to expend 
$1.7 billion as proposed by the Administration. But as a result 
of this expenditure, what benefits are we going to get as a 
country, and to the American people?
    Mr. Gould. All Americans, in my view, have a shared 
responsibility to protect wildlife and habitats for future 
generations. Conserving our natural resources at this time will 
ensure that we have places to hike, boat, fish, hunt, see 
wildlife, or just enjoy the quiet and peace of nature.
    Mr. Faleomavaega. In other words, you have commercial 
fishing, you have all these other things that are----
    Mr. Gould. All these other things.
    Mr. Faleomavaega.--related to these things that you 
regulate.
    Mr. Gould. And not only that, it is a trust we pass on to 
future generations. If we let that go now, it won't be 
available. It goes away, it is gone.
    And one thing everybody has to realize is the Fish and 
Wildlife Service is an incredible economic generator. 
Incredible economic generator.
    Mr. Faleomavaega. Well, that is what I am trying to get at, 
Mr. Gould.
    Mr. Gould. It is the point.
    Mr. Faleomavaega. Tell us exactly what economic benefits 
that we are going to get from this.
    Mr. Gould. Well, I can give you some examples. Since I had 
a feeling that question would come up.
    Mr. Faleomavaega. I realize that $1.7 billion is not 
peanuts, as I am sure that we are very much conscious of the 
fact.
    Mr. Gould. According to, and this is my old program, the 
National Survey of Fish and Hunting and Wildlife-Associated 
Recreation that comes out every five years found that more than 
87 million Americans, or 38 percent of the United States 
population aged 16 and older, pursued outdoor recreation in 
2006. They spent $120 billion that year pursuing those 
activities. About 71 million observed wildlife, while 30 
million people fished, and 12.5 million people hunted.
    Mr. Faleomavaega. And I am also aware of the fact that some 
150 million of our fellow Americans live on the coasts, coastal 
states of our country.
    Mr. Gould. They do.
    Mr. Faleomavaega. And of that 150 million, does that relate 
also to the fact that by you expending $1.7 billion, and you 
just noted earlier how much are we benefitting from this?
    Mr. Gould. Oh, according to that study, $120 billion.
    Mr. Faleomavaega. Is that just one aspect of it? Or are 
there other factors?
    Mr. Gould. That is just the hunting, fishing, and wildlife 
utilization. That doesn't include some of the economic benefits 
driven by guiding industry and----
    Mr. Faleomavaega. Well, with the $120 billion that you are 
getting on this as a benefit, you are talking about how many 
people are employed?
    Mr. Gould. Let us see. I don't have that figure, but I can 
get it for you.
    Mr. Faleomavaega. Can you submit that for the record?
    Mr. Gould. I will try to find that for you.
    Mr. Faleomavaega. The National Wildlife Refuge System, I 
think you are proposing about a $500 million budget. Why is 
this so important and critical, as far as having to expend this 
amount of money for the refuge system?
    Mr. Gould. Well, it is part of that larger benefit that I 
indicated, in terms of conserving fish and wildlife for our 
future generations, both for economic benefit, just the 
existence value of that, of that land.
    It is amazing, when I was doing the Exxon Valdez oil spill 
we did an intrinsic value study on just the value of fish, 
wildlife, and habitat.
    Mr. Faleomavaega. My time is up, Mr. Gould. But I just want 
to say this. We are expending $1.7 billion for the services of 
your agency that produces over $120 billion benefit, not only 
for employment, but for all different services that are related 
to your function.
    Mr. Gould. That is true.
    Mr. Faleomavaega. Thank you, Mr. Chairman. Thank you, Mr. 
Gould.
    Dr. Fleming. I thank the gentleman. Let us see, I now 
recognize Mr. Runyan from New Jersey.
    Mr. Runyan. Thank you, Mr. Chairman. Mr. Gould, I am 
honored to actually represent New Jersey's Third Congressional 
District, which has a beautiful section of shoreline. And when 
I say New Jersey shore, yes, ``Jersey Shore'' is filmed in my 
district.
    [Laughter.]
    Mr. Runyan. But kind of leading off at the last line of 
questioning, you know, it is my understanding that Fisheries 
budget has been cut by $12 million under Fiscal Year 2010's 
levels, and land acquisition has increased by over $50 million 
over Fiscal Year 2010's levels. And we just talked about the 
amount of money recreational fishing costs. I mean, it accounts 
for nearly $38 billion annually.
    So with Fisheries spending being cut, and you just said 
yourself that it spurs the economy, how are we really, what is 
the rationale behind this shift from moving fish from 
fisheries, which we admit, you know, the fishing industry I 
have--recreational, commercial, charter boat--they are all 
struggling because of that. And we are not supporting the 
fisheries aspect of it. What is the rationale behind that and 
that job loss?
    And how is the land acquisition, you know, the additional 
$56 million that we are going to spend on land acquisition, how 
many jobs is that really going to create?
    Mr. Gould. Well, I will start with the fisheries. There was 
a $12.2 million decrease; of that, $4.2 million were one-time 
Congressional add-ons.
    There was a one-time expenditure for ecosystem restoration 
in the Bay Delta ecosystem, which had to do with water issues, 
that was also a one-time addition to our budget.
    Approximately, remember I indicated that there was going to 
be somewhere around, from now until the end of Fiscal Year 
2012, a reduction of $26 million in administrative 
efficiencies. For the Fisheries program, approximately--that is 
their share, $1.9 million.
    The rest of it has to do with mitigation hatcheries. And 
there is no specific mitigation hatchery in your district, but 
that is our attempt to implement a user-pay concept for 
mitigation hatcheries that we actually operate, that actually 
do work for lost services that result from Corps of Engineers 
dams, Central Utah Project TVA. And we have been trying for 
years, and now are making significant progress, in actually the 
people that we are doing that mitigation work for, instead of 
it coming out of our resource management money, it is going to 
come out of their budgets.
    And in fact, 2012, we have made almost $4 million of that 
$6.3 million, we have actually got agreements for that they 
will continue that work. We agree those hatcheries are 
incredibly important to the economy. We agree those hatcheries 
are incredibly important to the, to hunting and--well, fishing. 
And we agree that they are really important to tribal 
interests, too. The only difference is that somebody else is 
going to be paying for the responsibility we are carrying out 
for them.
    Mr. Runyan. And with that being said, Mr. Duncan touched on 
it earlier. You have $91 million being spent on new visitor 
centers. And within the Hatchery Program, many of those 
facilities are nearing 100 years old. And you are in a budget 
crisis. Isn't there a better way to really, quite frankly, you 
know, mission-critical projects? A better use of our money, 
especially in the budget crisis that we are in.
    Mr. Gould. Well, we have found that those visitor centers 
do a lot in terms of creating awareness of the outdoors and the 
importance of a natural environment, hunting and fishing and 
the like, through those visitor centers. Those visitor centers 
were developed using ARA funds, as was indicated, and we are 
making significant progress in getting them done.
    We picked those visitor centers in high, in areas where we 
would have a lot of people coming through, so that they would 
have a better appreciation for fish, wildlife, and their 
habitats. And we would create a lot of jobs.
    We have a very standard format that we have for creating 
these visitor centers, so they are very efficiently built. We 
got quite a few of them for the $91 million that we spent. And 
ultimately, after all is said and done, maybe in the years to 
come they are going to pay off in terms of understanding of 
wildlife, understanding of the importance of the environment, 
understanding of conservation, and understanding that the 
people of this country have both an economic and a cultural 
responsibility to maintain our fish and wildlife habitat in 
good order.
    Mr. Runyan. Well, with that being said, I just hope every 
department in the U.S. Government--I know this Congress is 
making a valiant effort at tightening their belts, like other 
Americans are doing. I hope your Department goes down that path 
with us as we move toward fiscal sanity.
    And I yield back, Mr. Chairman.
    Dr. Fleming. Thank you. We have been joined by another 
Member this morning, and so I would like to recognize Mr. 
Markey of Massachusetts. Five minutes, sir.
    Mr. Markey. Thank you very much, Mr. Chairman. Mr. Gould, 
just to clarify, the money that is used for land acquisitions 
through the Land and Water Conservation Fund comes from funds 
paid to the United States by oil companies, and for their oil 
and gas production, on the public lands owned by people of our 
country?
    Mr. Gould. From the public lands, yes.
    Mr. Markey. And it does not come from general tax revenues 
from our struggling families and small businesses, but from 
extremely profitable oil companies that are drilling on the 
lands of those families. Is that correct?
    Mr. Gould. Yes, yes, that is correct. But the lands 
obviously we are purchasing through conservation easements, and 
that does come from the public coffers.
    Mr. Markey. It comes from the public coffers.
    Mr. Gould. Yes.
    Mr. Markey. Not from the money that comes from the oil and 
gas production on public lands?
    Voice. No, he is correct.
    Mr. Gould. No, it does. You are correct
    Mr. Markey. Want me to revise that again?
    Mr. Gould. Yes. You are correct, sir.
    Mr. Markey. OK, good, that is a good answer.
    Mr. Gould. Yes.
    Mr. Markey. As I answer with my wife, you are right, I am 
wrong. That is the correct answer.
    Now, can you describe the workload you are anticipating in 
the coming years for the Endangered Species Act consultations 
on renewable energy projects? How will the $2 million increase 
for these consultations in Fiscal Year 2012 request help to 
move these projects forward? It is very important that we get 
these renewable energy projects up on public lands, while 
ensuring that we protect our environmental values.
    Mr. Gould. Right. For the last three years we have been 
proposing, and have received to date, increases of $2 million 
in 2010, and we are proposing a $2 million increase in 2011, 
another $2 million in 2012. And the reason is we are ramping 
up. Because as you indicated, us working with the renewable 
energy industries in terms of being effective stewards of the 
land, as well as providing renewable energy to our country, we 
see this as a big need. So that is why we have been ramping up 
over time. And we will continue to ramp up as we see the need, 
and not only on public lands. The Endangered Species Act has 
some responsibility to deal with renewable energy on private 
lands. And so we are also going to be looking in the future at 
the possibility of a need there.
    Mr. Markey. OK, great. Thank you. Section 704 of H.R. 501, 
which is my bill, along with many other Members, to implement 
the recommendations of the BP Oil Spill Commission, would allow 
the Secretary to recover response costs and damages for injury 
to units of the National Wildlife Refuge System, such as the 
Delta National Wildlife Refuge in Louisiana. Does the Service 
support that provision?
    Mr. Gould. I am not aware that we have actually taken a 
position on the bill. I don't know, sir. I will check on it.
    Mr. Markey. OK, please. I would like a recommendation from 
the Department.
    Mr. Gould. Yes, sir.
    Mr. Markey. One of the most powerful arguments made in the 
course of trying to get a fair settlement from Exxon after the 
Exxon Valdez spill was an economic study conducted by the State 
of Alaska. This study estimated the willingness of Americans to 
pay to prevent another Exxon Valdez to be approximately $2.8 
billion. Is the Service carrying out similar or better studies 
today for the Deepwater Horizon disaster?
    Mr. Gould. First of all, I was on the management team for 
the Exxon Valdez that set up those intrinsic values. They were 
incredibly powerful tools. And yes, we are doing that for the 
Deepwater Horizon in our DA process.
    Mr. Markey. And what is your schedule for the completion of 
that project?
    Mr. Gould. It is being managed by NOAA at this time, and I 
don't have the specific date of when that project will be 
completed.
    Mr. Markey. Can you report that back to the Committee, 
please?
    Mr. Gould. Yes, sir.
    Mr. Markey. Thank you. The EPA is required to consult with 
the Service on the effects of pesticides on endangered and 
threatened species. However, the programs responsible for this 
consultation are in need of additional expert biologists to 
address the backlog of more than 1100 pesticide reregistration 
and other water-quality criteria consultations under the 
Endangered Species Act.
    Can you tell me how your budget request addresses this 
need?
    Mr. Gould. Within our existing budget, we are working right 
now very closely with EPA to assess the--scientifically, using 
best science, to determine how that consultation will proceed. 
We are right now just working with EPA, and I don't know 
exactly when we are going to complete that process.
    Mr. Markey. So you don't know how many FTEs will be 
dedicated to addressing the backlog?
    Mr. Gould. No, sir, I don't. I will find out for you.
    Mr. Markey. OK, thank you very much. Thank you, Mr. 
Chairman, I appreciate it.
    Dr. Fleming. I thank the Ranking Member of the Full 
Committee. I now recognize Mr. Pierluisi.
    Mr. Pierluisi. Thank you, Mr. Chairman. Dr. Gould, I am 
encouraged by the work the Service is undertaking in the 
Caribbean region, particularly across the seven wildlife 
refuges within Puerto Rico, and through the efforts of the 
Ecological Services to recover the endangered Puerto Rican 
parrot. I am also interested in the Service's research to 
conserve manatees in both Florida and Puerto Rico.
    And I hope the budget before us for the coming year will 
provide resources sufficient to protect the progress that has 
been gained through these programs, and to support overall 
ecosystem-based habitat management in Puerto Rico.
    In general, I support the emphasis the President's budget 
places on youth, and I am pleased by an increase proposed for 
initiatives to educate young people across the country about 
fish and wildlife conservation. These initiatives help instill 
civic responsibility, and ensure future generations of 
Americans are engaged citizens and wise stewards of our 
environment.
    I will note that I am concerned, however, about reductions 
to law enforcement that are contained in the Service's budget. 
Specifically, a 2005 analysis by an international association 
of Chiefs of Police detailed the need for 845 full-time law 
enforcement officers to protect visitors and respond to illegal 
activities across the refuge system. Yet, in 2010, the refuge 
system reportedly had about 200 officers on patrol, roughly 24 
percent of the professional recommended level.
    In general, Doctor, what percentage of refuges in the 
system with established visitor services today lack dedicated 
law enforcement officers assigned to the staff?
    Mr. Gould. I am going to look to the back here, but I 
believe we have about 55 percent that have refuge officers. Is 
that, 55?
    Voice. That is right.
    Mr. Gould. We have 55 percent that have refuge officers. We 
have zone officers that cover other areas where we don't have 
specific law enforcement presence. We have somewhere on the 
order of between 250 and 300 refugee law enforcement, and that 
is not our special agents. It is not our LE budget. That is the 
refuge law enforcement.
    Mr. Pierluisi. That would be including part-time officers?
    Mr. Gould. No. That would be, we have a few part-time 
officers, but not very many. The 300 number I gave you, 
approximately 300, includes some part-time officers.
    Mr. Pierluisi. See, one thing that troubles me is that even 
if you, if I take that, I mean, at face value, and I don't have 
any reason to doubt it really, I see that back in 2003 you had 
238 officers. And all I can tell is that whatever need you had 
back then, you must have now even more. It must have increased. 
Because the refuge system itself has expanded in the last eight 
years. So by just logic and common sense, I would have to 
believe that the law enforcement component or need should have 
also increased.
    What is the right level of law enforcement personnel, in 
your view? You know, keep your mission and do what you are 
supposed to do.
    Mr. Gould. I just checked with my folks in the refuge 
system. We indicated that at some point in time, we would like 
to see somewhere around 400 officers. And we are getting there. 
We value that, that function a lot.
    But what we are doing is we are slowly ramping up into that 
number, given the fiscal realities we have to deal with, and 
understanding that we have to spread our people around a little 
bit. But we are covering the most important areas.
    Mr. Pierluisi. Thank you, Director. My time, I yield back 
the seconds I have left, Mr. Chairman, on my time. I yield 
back.
    Dr. Fleming. OK, I thank the gentleman. And next, the 
Chairman would like to recognize Chairwoman Emeritus, Ms. 
Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman, and also for the new 
title.
    [Laughter.]
    Ms. Bordallo. Good morning, or good afternoon, Director 
Gould. I am going to follow up some of the questions that the 
Representative from the Northern Marianas asked earlier. I 
really wasn't satisfied with some of the answers. And I am sure 
as Director of the agency, Acting Director, you must have some 
kind of an idea on the timeline.
    The National Wildlife Refuge System is the only Federal 
land system dedicated first and foremost to wildlife 
conservation. So in 2009 the system's management jurisdiction 
grew by over 50 million acres, with the designation of three 
new marine national monuments in the Pacific Ocean, one of them 
being the Rose Atoll in American Samoa; the PRIA, Pacific 
Remote Island Areas; and the Marianas Trench, Guam, in the 
Marianas Island.
    These monuments, Director, they provide critical habitat 
and spawning areas for many species of fish, coral, birds, and 
other wildlife.
    So my question is the same question that the Representative 
from Northern Marianas asked. I understand you may internally 
budget these within your base budget for the refuge system. 
What are the proposed operating budgets for these three sites 
in Fiscal Year 2012? Can you answer that more specifically?
    Mr. Gould. Well, specifically for the Remote Islands Unit, 
it is $1,485,000. And that includes the Marianas Trench, 
Palmyra, Rose Island, and all of those areas.
    In terms of the, you had indicated some concern about the 
notice of intent to get a management plan. We have already 
released the management plan for Rose Island. That is because 
there is no shared jurisdiction in that area with NOAA. And so 
that has already gone out. I was just looking here to see 
exactly; it went out in November of 2009. It is just we are--
and I would like to give you a specific date when the new 
proposed management plan notice of intent will go out. I will 
have to find out for you; I do not know the answer to that.
    Ms. Bordallo. You have absolutely no idea.
    Mr. Gould. Any day. I don't know.
    Ms. Bordallo. Any day. Well, I guess, because you know, the 
timeline has gone by.
    Mr. Gould. Right.
    Ms. Bordallo. So this is the management plan. What about 
the advisory council?
    Mr. Gould. Well, as you are aware, we at one time had 
submitted all the names for the advisory council. There was, 
unfortunately, a change of one name, because one individual had 
to drop off. And I don't believe we have the name from, I don't 
know where it came----
    Voice. We are waiting on the names from the Commonwealth of 
the Marianas.
    Mr. Gould. Commonwealth of the Marianas, we are waiting for 
a name.
    Ms. Bordallo. A name.
    Mr. Gould. So that we can resubmit. And we just haven't 
received it yet.
    Ms. Bordallo. And for the record, you know, I will speak to 
the delegate from the Northern Marianas. And that is the only--
--
    Mr. Gould. That is the only thing that is holding us up.
    Ms. Bordallo. All right. Otherwise, well, thank you. 
Because that gives us a little more assurance of--now, I have a 
few more questions here to ask.
    The North American Wetlands Conservation Act has been very 
successful in building durable partnerships between the Federal 
Government and non-Federal stakeholders, to support grant 
projects, to protect and serve, recover, or restore wetland 
habitat important for migratory waterfowl and other wildlife.
    H.R. 1 zeroed funding for the North American Wetlands 
Conservation Fund. Can you please explain what impact this will 
have? Especially since this matching-grant program usually 
leverages three times the amount of the Federal grant in non-
Federal matching contributions.
    Mr. Gould. Yes. Currently, NAWCA generates an average of 
2.1 non-Federal dollars in match for every grant dollar. In the 
U.S., where over 90 percent of the NAWCA money is spent, the 
ratio is 2.7-to-1. As you are aware, NAWCA money can be spent 
in Canada and in Mexico.
    And ultimately, it is our estimate that that $50 million 
would result in actual $150 million, so almost twice. That is a 
conservative estimate of money that will not go to wetlands 
protection and ducks.
    Ms. Bordallo. All right. And has the Service assembled 
information on the economic benefits to committees of refuges? 
Specifically, to property values and from tourism and ecosystem 
services.
    Mr. Gould. Yes, we have. I don't have that information 
directly in front of me, but we will provide that information 
for the record.
    Ms. Bordallo. All right. And then my final question is--I 
know my time is up, Mr. Chairman, one more quick--what is the 
value of volunteerism on refuges and fish hatcheries? Will the 
cuts in H.R. 1 to the refuge program and to conservation 
programs, like the Land and the Water Conservation Fund and the 
North American Wetlands Conservation Fund, have an impact on 
this value? The volunteers.
    Mr. Gould. The volunteers? Likely not. We still have an 
incredible number of volunteers, somewhere on the order of 40 
million volunteers a year.
    Ms. Bordallo. Very good.
    Mr. Gould. And there are 1.5 million hours, volunteer 
hours, a year. And so we expect that to continue.
    Ms. Bordallo. Thank you, Mr. Chairman, my time is up. And I 
thank you for the extension.
    Dr. Fleming. I thank the gentlelady from Guam. That 
completes round 1. And Mr. Gould, I appreciate your patience 
with us. This is very important topics. We do have an interest 
in a second round; I think it will be much briefer.
    But before going to that, Chairman Hastings of the Full 
Committee asked me to read into the record a statement, and 
then a question for you. And we would like to have your 
response for the record, as well. So it goes as follows.
    ``Because of other commitments, I regretfully am not able 
to participate at this hearing today, but have requested that 
Chairman Fleming specifically raise one issue of very great 
concern. And that is, the Fish and Wildlife Service's draft 
recovery plan for the Northern Spotted Owl.
    ``As you know, last fall I and several House colleagues 
requested an extension of the public comment period on the Fish 
and Wildlife Service's release of this sweeping proposal that 
would impact a huge amount of private forest lands in the 
Northwest. I was deeply disappointed that the Service extended 
that period for only 30 days.
    ``However, since then I have made aware that the Forest 
Service and the Bureau of Land Management, both Federal land 
management agencies directly affected by the proposal, have 
raised serious concerns about the lack of science and 
transparency on the plan's provisions. Most concerning is that 
according to the BLM's Director, Bob Abbey, the plan as written 
could reduce Northwest commercial timber harvests by as much as 
50 percent. This would severely impact Northwest forest jobs 
and local economies.
    ``I will be sending another letter to you and Secretary 
Salazar in the near future elaborating on my concerns. But in 
the meantime, I would like your commitment today, for the 
record, that the Service will reopen the public comment period 
to allow a much more robust opportunity for those most affected 
to comment and review your proposals. Can I have your 
commitment on that today?''
    [Pause.]
    Mr. Gould. In appreciation of the need in this very complex 
issue to move forward with some speed, we have extended the 
comment period because of the need to move very quickly, in 
recognition of the fact that BLM has to move forward quickly 
with their planning process.
    As you are aware, we were in this game because we had, 
there was legal concerns about the efficiency of the WORP, or 
the Western Oregon Resource Plan. And so, at this time I can't 
make that commitment.
    But what I can commit to is that we will work, we are 
working very closely with the Forest Service and BLM to resolve 
any issues that might exist regarding the science and the 
content of the Recovery Plan itself.
    I have had conversations with our Regional Director, we 
have had conversations with the Forest Service not any later 
than a week and a half ago. And I think the Forest Service is 
pretty good with where we are right now. We still are working 
with BLM, and in fact we are doing that this week, and should 
have more information next week or the week after regarding a 
direction we are going to go for in terms of the recovery plan.
    Dr. Fleming. Well, I hear what you are saying. But you are 
saying that you are not willing to--apparently there hasn't 
been adequate public comment. I hear a lot of administrative 
discussion agency to agency, and we will work things out. But 
Chairman Hastings and I cannot have your commitment today that 
you will open this up for further comment to those who are 
affected?
    Mr. Gould. What we can do is commit that we will meet with 
Congressman Hastings and discuss the effort and the ongoing 
coordination, to see if what is going on might be in keeping 
with what he has in mind.
    Dr. Fleming. Well, that is not the commitment we would like 
to have.
    Mr. Gould. OK.
    Dr. Fleming. But certainly Chairman Hastings will look 
forward to further discussion, and hopefully working something 
out with you.
    Well, thank you. That concludes the first round for the 
second panel. And I would like to now recognize the Ranking 
Member for five minutes. And then we will go to Mr. Duncan, and 
then I will conclude.
    T1Dr. Christensen. Thank you, Mr. Chairman. And thank you, 
Dr. Gould.
    I have a question sort of relating to one of my other 
committees. In 2009, the Department of Homeland Security agreed 
to provide $50 million to the Department of the Interior to 
mitigate damages to natural resources from border 
infrastructure.
    It is my understanding that the Department of the Interior 
has only received about $7 million of this $50 million. So what 
action is the Department of the Interior taking to ensure that 
the remaining $43 million is provided by the Department of 
Homeland Security?
    Mr. Gould. As you indicated, there is approximately $7 
million that had been spent of the $50 million. And our working 
relationship with Customs and Border Patrol is very good, and 
we are in constant dialogue.
    And in fact, there is a list of land acquisition projects 
that exists right now that relates to that particular 
commitment with Customs and Border Patrol that is now being 
evaluated by Customs and Border Patrol of the $20 million. So 
we are making significant progress, effective progress, to get 
that $50 million spent.
    Dr. Christensen. Great. And another question about the 
Wildlife Refuge System. The Fiscal Year 2012 budget request for 
operations and maintenance of the National Wildlife Refuge 
System is essentially the same as the Fiscal Year 2010 enacted 
level. Will the Service be able to maintain management 
capabilities for the Refuge System with no increase, while at 
the same time standing up a national network of landscape 
conservation cooperatives?
    Mr. Gould. Yes, we will, mostly because conservation 
easements require little, if any, maintenance requirements. So 
we will be in good shape.
    We have a backlog list, and ARA funds was very useful to us 
to produce that backlog list. But we will be able to move 
forward effectively with what we have proposed in the budget.
    Dr. Christensen. Great. And the Service has received 
petitions to list the bluefin tuna and the salt marsh top 
minnow populations. What are you doing to determine whether 
these populations of either of those species, whether they face 
or do not face a higher risk of extinction? And if they do, how 
will you evaluate the costs? And which would be the responsible 
parties to pay for this, of a new endangered species listing in 
the Gulf? Do you understand that question?
    Mr. Gould. I believe the bluefin tuna is the responsibility 
of National Marine Fisheries Service, so I can't specifically 
give you an answer there.
    In terms of the minnow, I don't know the answer regarding 
the top minnow. And we will provide you that answer in the 
record.
    Dr. Christensen. OK. But both of these species are maybe at 
risk for extinction in the Gulf Coast. And would you expect 
that maybe BP or one of the companies involved in the Deepwater 
Horizon would be responsible for paying?
    Mr. Gould. I really don't have an answer to that question.
    Dr. Christensen. OK. We will await a response from the 
Service. Last question. I was really distressed to hear that 
the white-nose syndrome has now been confirmed in Indiana and 
North Carolina for the threatening Eastern bat populations. I 
am sure that Ms. Bordallo would even be more upset about this.
    But given the increase in transmission of this disease, 
will the Department continue to view this as a high priority? 
And what funding, if any, would be allocated to further develop 
and implement state response plans?
    Mr. Gould. We have hired a coordinator. It is a very high 
priority of the Service; it is a big concern of the Service. 
You will see, in the 2012 budget, a reduction, but that was for 
a specific add-on. Our base budget continues to be the same.
    What is also important to note is that other agencies that 
are supporting us, like USGS and some of the state agencies, 
are also coming forward with some funding to help us better 
understand the problem and move forward.
    But we also share your concern about both the enormity and 
the potential disastrous outcome of us not paying attention to 
this huge problem.
    Dr. Fleming. I thank the Ranking Member. I now recognize 
the gentleman from South Carolina.
    Mr. Duncan. Thank you, Mr. Chairman. And thank you, Mr. 
Gould, for bearing with us for one final bit of questioning.
    Just some clarification on a couple of items. At the end of 
Fiscal Year 2011, the U.S. Fish and Wildlife Service will have 
9,236 full-time employees. And you have stated that, or some 
information that I provided stated that during the Recovery 
Act, the Service was awarded 1,072 contracts, 371 grants or 
cooperative agreements that led to the creation or retention of 
4,020 jobs. That is according to the Award Recipient Reports as 
of this past December 31.
    Can you explain to me what is meant by the creation or 
retention of 4,020 jobs? Because I think for $280 million, that 
is pretty expensive per job.
    Mr. Gould. Those were private sector jobs, contractors, 
4,000.
    Mr. Duncan. Private sector? So you created, you are saying 
that with $280 million, you created 4,000 private sector jobs.
    Mr. Gould. That is what the recipients reported. Yes, sir.
    Mr. Duncan. OK. I am going to delve into that a little bit, 
because I want some further clarification on it. But I am not 
going to delve into it with you right now.
    Second question is, the Service had indicated that it will 
request $997 million to be allocated from its permanently 
appropriated account, such as the Sport Fish Restoration 
Account, Federal Aid and Wildlife Restoration, and Migratory 
Bird Conservation Account.
    I went through in South Carolina as Chairman of the South 
Carolina House of Representatives Agriculture, Natural 
Resource, and Environmental Affairs Committee, and then through 
my active role with some other groups, such as Shimano and Bass 
Pro and others that follow recreational fishing. Last year we 
had the Atlantic Coast Fisheries management recommendation to 
close bottom-fishing for grouper and snapper in an area off of 
South Carolina and other states.
    So it concerns me that you are asking for $997 million to 
be taken from the Sport Fish Restoration Account, when we are 
closing sport fishing along the coast of South Carolina.
    Mr. Gould. Congressman, that money is a pot of permanently 
appropriated money that is, we just administer. We pass that 
money through to the states. Approximately a little over half 
that amount is in the Fisheries Account, while somewhat less 
than half is the Pittman-Robertson Act, which is the kind of 
hunting, the guns and that sort----
    Mr. Duncan. Fees on ammunition and----
    Mr. Gould. Yes. So when we say we are disbursing it, what 
we are doing is sending it to the states to support the fish 
and game agencies in the states.
    Mr. Duncan. So when you say you are requesting it be 
allocated, you are going to pass it on to the states.
    Mr. Gould. Yes, sir.
    Mr. Duncan. Why is it being passed on to the states now? 
Why are you having them make a specific allocation?
    Mr. Gould. We do it every year. It is an allocation that 
comes through the taxation system. Those are excise tax money. 
And the money goes from Treasury to us, to allocate to the 
states. All we do is administer it through allocated formulas, 
allocation formulas, to the states.
    Mr. Duncan. There is not an automatic trigger there based 
on collections at the state level, under Pittman-Robertson?
    Mr. Gould. I don't know what you mean by an automatic 
trigger.
    Mr. Duncan. OK, let us say South Carolina sells X number of 
dollars. And I am asking for clarification.
    Mr. Gould. Oh, oh, OK.
    Mr. Duncan. They are not automatic----
    Mr. Gould. The amount that is going to South Carolina is 
based on, in the case of the amount of water and the amount of 
licenses sold in the state itself. So the proportion that goes 
to any given state is based on an allocation formula. Hunting 
licenses, fishing licenses, availability, how much water there 
is, how much hunting opportunity there is. And it is a system 
that has been working, in the case of Pittman-Robertson, since 
1934.
    Mr. Duncan. And that money is automatically triggered to go 
to the states?
    Mr. Gould. Yes, sir.
    Mr. Duncan. OK. So why are you having them make a separate 
request for monies out of that fund to send to the states?
    Mr. Gould. It is just a matter of protocol. It is pre-
appropriated money.
    Voice. You are not making a request, then.
    Mr. Gould. No, we are not making a request at all.
    Mr. Duncan. I mean, you just said that you are making an 
allocation request so that you can send more money to the 
states. That is what I interpreted you to say.
    Mr. Gould. The total budget for the Fish and Wildlife 
Service isn't $1.7 billion, it is $2.7 billion. About a billion 
of it, approximately--I don't know exactly what that is--is 
non-appropriated funds that come through the Pittman-Robertson 
and Dingell-Johnson pot.
    What we are talking about in terms of money for the Service 
is $1.7 million. What you are talking about is that non-
appropriated money that is the result of excise taxes on the 
hunters and fishermen of this country. They literally fund 
conservation in this country, to the states. And every year we 
get an allocation of money that comes from the excise taxes, 
both on the hunting side and the fishing side. And then we have 
an allocation formula, and we just run through the system, and 
we just send it straight to the states. And then they use that 
money for their purposes.
    Dr. Fleming. OK, the gentleman's period is completed. And I 
do have the last few questions before we end the session today. 
And I am sure stomachs are growling and everyone is anxious to 
get some good, hot food today.
    OK. First question is, in its Fiscal Year 2010 
appropriations bills, the House Appropriations Committee noted 
in its report, ``The Committee believes that Refuge visitor 
centers are appropriate in limited locations.''
    Was the Service aware of that language?
    Mr. Gould. Yes, we were. I am looking back at our Refuge 
guys so I can get you a straight answer.
    Dr. Fleming. I appreciate that. I have to have staff 
surrounding me to make sure I get very lucid and correct 
answers, so I appreciate that.
    Why did the Service choose to not only ignore that advice, 
but in fact spend more than one third of the $280 million on 
the construction of new headquarters/visitor centers?
    Mr. Gould. Seven of those visitor centers/admin offices 
were to replace old and unsafe existing buildings. Six were to 
replace existing leased-space buildings, because they were very 
expensive to run and inadequately configured. One was a new 
space, as you indicated, and it was mostly funded by DOD funds, 
at the Rocky Mountain Arsenal in Colorado. It is being a shared 
space with other agencies, too.
    Dr. Fleming. Yes, I understand. Well, it seems like such a 
large chunk of the $280 million. The question is, if you didn't 
have that $280 million, would you have necessarily gone forward 
with those expenditures?
    Mr. Gould. They would have been on our construction 
priority list. I don't know exactly where they would have been 
on the list; I presume high, because of the condition of the 
buildings. But we have a construction priority list and a 
construction, that goes with our budget. And you will indicate 
it is there. And you just would have seen a longer list.
    Dr. Fleming. One of the projects funded by the stimulus 
bill was the construction of a visitor and environmental 
education center at Mammoth Spring National Fish Hatchery in 
Arkansas, at a cost of $1.2 million. The little town in which 
this national fish hatchery is located has a population of 
about 1200 people. Was this really the best expenditure of 
taxpayer money for a facility that is more than 100 years old? 
What is the status of the construction? And how many jobs were 
created?
    Mr. Gould. I don't have a specific answer for that, but we 
will submit answers to the record.
    Dr. Fleming. OK, I thank you. And finally, how many people 
visit the Mammoth Spring National Fish Hatchery each year?
    Mr. Gould. I will also have to submit that to the record. I 
don't have that information with me right now.
    Dr. Fleming. OK, very good. Well, I thank you. That 
concludes my questions. And I certainly thank you, Dr. Gould, 
and our other witnesses as well, for your testimony today.
    And I would also like to thank you, sir, for your service 
to our country. And I thank members of the Subcommittee, the 
staff, even the audience, for their patience and interest 
today.
    Members of the Subcommittee will have additional questions, 
and we ask that you respond to these in writing, if you would, 
please, sir. The hearing record will be open for 10 days to 
receive these responses.
    So with that, business is concluded today. Thank you.
    [Whereupon, at 12:45 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
